<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR
APPROPRIATIONS FOR FISCAL YEAR 2012 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 112-80, Part 5]
[From the U.S. Government Publishing Office]



                                                  S. Hrg. 112-80, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 

               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================


                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1253

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2012 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR FISCAL YEAR 2012, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                              MAY 10, 2011


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
2012 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 5  EMERGING THREATS AND 
                              CAPABILITIES


       Available via the World Wide Web: http://www.fdsys.gov/




                  U.S. GOVERNMENT PRINTING OFFICE
68-088                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                 KAY R. HAGAN, North Carolina, Chairman

JACK REED, Rhode Island              ROB PORTMAN, Ohio
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
JOE MANCHIN III, West Virginia       SCOTT P. BROWN, Massachusetts
JEANNE SHAHEEN, New Hampshire        LINDSEY GRAHAM, South Carolina
KIRSTEN E. GILLIBRAND, New York      JOHN CORNYN, Texas

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
 Proliferation Prevention Programs at the Department of Energy and the 
                         Department of Defense
                              may 10, 2011

                                                                   Page

Harrington, Anne M., Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  Department of Energy; Accompanied by John Gerrard..............     5
Myers, Kenneth A., III, Director, Defense Threat Reduction 
  Agency, Department of Defense..................................    14
Handelman, Kenneth B., Acting Assistant Secretary for Global 
  Strategic Affairs, Department of Defense; Accompanied by Jed 
  Royal, Director, Office of Cooperative Threat Reduction Policy, 
  Department of Defense..........................................    24

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2012 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MAY 10, 2011

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

 PROLIFERATION PREVENTION PROGRAMS AT THE DEPARTMENT OF ENERGY AND THE 
                         DEPARTMENT OF DEFENSE

    The subcommittee met, pursuant to notice, at 3:55 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Kay R. 
Hagan (chairman of the subcommittee) presiding.
    Committee members present: Senators Hagan and Portman.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Madelyn R. Creedon, counsel; Richard 
W. Fieldhouse, professional staff member; and Jessica L. 
Kingston, research assistant.
    Minority staff members present: Adam J. Barker, 
professional staff member; John W. Heath, Jr., minority 
investigative counsel; Daniel A. Lerner, professional staff 
member; and Michael J. Sistak, research assistant.
    Staff assistants present: Kathleen A. Kulenkampff and Brian 
F. Sebold.
    Committee members' assistants present: Roger Pena, 
assistant to Senator Hagan; Patrick Day, assistant to Senator 
Shaheen; and Brent Bombach, assistant to Senator Portman.

      OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRMAN

    Senator Hagan. I would like to convene the second session 
of the Emerging Threats and Capabilities Subcommittee today. 
Good afternoon. We meet today to discuss proliferation 
prevention, nonproliferation, counterproliferation, and threat 
reduction programs at the Departments of Defense and Energy.
    We began this hearing today in closed session to understand 
the threats these programs are designed to address, and in that 
session we learned more about why we worry about proliferation 
of weapons of mass destruction (WMD), technology, and 
materials, and who is trying to get WMDs.
    I want to welcome our witnesses to this session. We have 
Ms. Anne Harrington, the Deputy Administrator for Defense 
Nuclear Nonproliferation at the National Nuclear Security 
Administration (NNSA) at the Department of Energy (DOE); Mr. 
Kenneth Myers III, the Director of the Defense Threat Reduction 
Agency (DTRA); and Mr. Kenneth Handelman, the Acting Assistant 
Secretary of Defense for Global Strategic Affairs at the 
Department of Defense (DOD).
    As I mentioned in the closed session, there is wide 
agreement that the use of a nuclear weapon by a terrorist would 
be a catastrophic event. The probability that this will occur, 
however, is unknown, but some, such as former Senator Sam Nunn, 
worry that it's just a matter of time--not if, but when.
    President Obama has embarked on a three-pronged effort to 
reduce the spread of nuclear weapons, nuclear materials, and 
nuclear technology. As the President said in the Nuclear 
Posture Review, ``The threat of global nuclear war has become 
remote, but the risk of nuclear attack has increased.''
    The most immediate and extreme threat today is nuclear 
terrorism. Today we will discuss the efforts at DOD and DOE to 
thwart the goals of these potential nuclear terrorists and 
reduce the chances that a nuclear or radiological device is 
detonated in a U.S. city or anywhere else.
    At the end of the Cold War, DOD and DOE, at the direction 
of former Senator Sam Nunn and Senator Richard Lugar, 
established programs with Russia and the states of the Former 
Soviet Union to secure, dismantle, or destroy nuclear and 
chemical weapons and to secure or destroy biological weapons 
materials. That program, I'm pleased to say, has been a 
resounding success, with thousands of nuclear weapons and 
delivery systems destroyed, tons of nuclear material secured, 
tons of chemical weapons destroyed, and significant quantities 
of biological material secured. While there is still work left 
to be finished, this work is winding down.
    Today the focus is shifting to address more global threats, 
not only from nuclear and radiological threats, but also 
biological materials. The biological threat is very different 
from the nuclear threat, but an attack using biological 
material would be devastating. As a result, DOD is increasing 
its work to prevent the biological threat. Almost half of the 
cooperative threat reduction program in fiscal year 2012 will 
be dedicated to preventing a biological attack.
    We look forward to discussing with our DOD witnesses how 
this effort, particularly those new efforts in Africa and 
elsewhere, are progressing. We would also be interested in 
hearing from our witnesses today how the response to the threat 
is evolving and what is the next round of challenges in 
nonproliferation programs generally. States such as India, 
Pakistan, and North Korea continue to increase the size of 
their nuclear weapons stockpile and delivery systems. Other 
states, such as Iran, are still trying to hide their actions 
and expand their nuclear programs. We would be interested in 
the progress and programs such as the proliferation security 
initiative and export controls, which are designed to prevent 
the further proliferation of nuclear technology and delivery 
systems, primarily among state actors.
    While the United States has been a leader in threat 
reduction programs, the problem is not a U.S. problem only. As 
a result, many of the programs are designed to build capacity 
in regional partners to detect and interdict illicit 
trafficking in WMD and related materials. Is the United States 
getting good cooperation from these partners?
    The two Departments seek to engage new partners, such as 
India and China, in preventing proliferation. How will these 
programs be different from the traditional programs and who 
will bear the cost?
    I thank each of our witnesses for being here this 
afternoon. I look forward to you answering these and many other 
questions and generally having a good discussion on this 
important topic.
    Senator Portman.

                STATEMENT OF SENATOR ROB PORTMAN

    Senator Portman. Thank you, Madam Chair, for this hearing 
and for our previous one, where we had the opportunity to speak 
with some of your colleagues in closed session. I'd like to 
join you, Madam Chair, in welcoming those here today and tell 
you thank you for your service and for those who serve under 
you, for what they're doing every day to help protect us from 
the existential potential threat of nuclear proliferation.
    Clearly, since the Cold War our approach has had to change 
with regard to the issues you deal with every day. At that time 
I think ``weapons of mass destruction'' referred to the Soviets 
almost exclusively in the possibility of a nuclear attack, and 
we had a mutually assured destruction approach that really has 
dissolved now, and now the threat in some respects is much more 
difficult because it's more diffuse, and of course includes 
chemical and biological weapons, as well as radiological and 
nuclear weapons.
    Of course, it has become a lot less predictable, as we've 
seen recently with rogue nations like Iran or North Korea and 
so many non-state actors having the shared goal to develop 
these destructive capabilities to terrorize and maybe sometimes 
to coerce others. Although we had a great success by recently 
eliminating the most wanted terrorist in the world, there are 
lots of violent groups now without a home who are dedicated, 
not to a government or to a place, but to an ideology of 
extremism. So that proliferation, as the chair has said, would 
be top on our priority list today to talk about.
    With regard to the funding, let me just say that we looked 
at some of these numbers and part of what we're doing here is 
building a record for the authorization bill. We do spend 
billions of dollars a year in securing the world's most 
dangerous materials and keeping them out of the hands of those 
who wish to do us harm. As we've said, that's extremely 
important.
    This has been a bipartisan effort over time and we're all 
committed to countering these threats. Nonetheless, in this 
fiscal condition we find ourselves in we need to be sure those 
dollars are being spent most effectively.
    There is currently a discrepancy that I just want to raise 
in my opening statement and then we'll have a chance to talk 
about. If you look at the 2012 budget request from DOE's NNSA, 
it is a $2.55 billion request and as I look here, since 2009 
this means these programs at DOE have expanded substantially. 
In fact, it's almost $1 billion a year, more than it was during 
the previous administration. So we have seen substantial 
increases in DOE's programs.
    The Government Accountability Office (GAO) has raised some 
concerns about the effectiveness of some of these programs and 
I'm sure you have had the opportunity to look at GAO's report. 
It says that the 4-year global nuclear materials security 
initiative lacks specific details on implementation. As I read 
it, it also indicates it lacks measurement to be able to know 
whether performance is being met.
    It talks about the three nuclear nonproliferation programs 
that they reviewed having made different levels of progress. 
Only one, the materials protection control and accounting 
program, did they consider to have made considerable progress 
in securing the Russian nuclear warhead and material 
facilities, which is of course one of the major objectives.
    They thought that the materials consolidation and 
conversion and the global threat reduction initiative programs 
had only exhibited limited success in achieving their 
objectives in Russia. The report also said that, because of 
questionable high-level Russian political commitment to working 
with the United States, the future of these programs was 
unclear.
    Again I think NNSA has a critical mission. The question is 
whether the increased funding is justified and what measures 
can be taken to address these concerns, assuming they are valid 
concerns.
    On the other hand, DTRA has had its budget decreased in the 
fiscal year 2012 request, and again this is a discrepancy I 
just want to hear more on today. Again, this decrease in DTRA 
funding comes as DTRA is being asked to do more and more and 
more, including hosting and conducting on-site verifications of 
arms control treaties, which is very important, particularly 
given the New START Treaty, including looking at issues that 
were raised in the U.S. Senate and in the House in that 
process. I understand inspections are already underway and I 
look forward to getting an update on how things are progressing 
there.
    In contrast to the increases for NNSA, I'm interested in 
hearing the reasoning for DTRA's budget reduction despite these 
increased responsibilities.
    Again, Madam Chair, I thank you for having the hearing and 
I appreciate the witnesses being here today. I look forward to 
hearing your testimony.
    Senator Hagan. Thank you, Senator Portman.
    Each of you have submitted a written statement that will be 
included into the record and I'd like you each to keep your 
opening comments to about 5 minutes or so. Ms. Harrington, if 
you would start, then will be followed by Mr. Myers and then 
Mr. Handelman. Ms. Harrington.

   STATEMENT OF ANNE M. HARRINGTON, DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
   ADMINISTRATION, DEPARTMENT OF ENERGY; ACCOMPANIED BY JOHN 
                            GERRARD

    Ms. Harrington. Thank you, Madam Chairman. Madam Chairman, 
Ranking Member Portman: Thank you for the opportunity to join 
you today to discuss the investments the President has 
requested for NNSA's defense nuclear nonproliferation programs. 
I will abbreviate that as ``DNN'' in my remarks.
    More importantly, thank you for your continued support of 
the NNSA and the 35,000 men and women working across the 
enterprise to keep our country safe, protect our allies, and 
enhance global security. We could not do this work without 
strong bilateral support and engaged leadership from Congress.
    Since I have submitted a more detailed written statement, I 
will keep my remarks short.
    If I could, I'd like to start with a simple but important 
statement. Preventing the spread of nuclear weapons and keeping 
dangerous nuclear and radiological materials out of the hands 
of terrorists is a vital national security priority. These are 
without a doubt national security programs. As President Obama 
said in his speech in Prague in April 2009, the threat of a 
terrorist acquiring and using a nuclear weapon is the most 
immediate and extreme threat we face. Indeed, it is hard to 
imagine a more dangerous threat to our Nation.
    That's the danger. Here's the good news. On any given day, 
we have some of our Nation's most talented and hard-working 
people engaged worldwide in more than 100 countries to reduce 
the global nuclear threat. In that work, we are joined by a 
network of similarly committed nations, international 
organizations, nongovernmental organizations, and individuals 
that support and enable and collaborate with us on these 
critical efforts. I'm honored to share this table with two of 
those.
    President Obama has shown strong leadership in protecting 
the safety and security of the American people by working to 
reduce global nuclear dangers. As part of that effort, he has 
requested $2.5 billion in fiscal year 2012 and $14.2 billion 
over the next 5 years to reduce the global nuclear threat by 
detecting, securing, safeguarding, disposing, and controlling 
nuclear and radiological material, as well as promoting the 
responsible application of nuclear technology and science. This 
includes stemming the risk of expertise proliferation through 
innovative science and technology partnerships.
    The President's request provides the resources required to 
meet commitments secured during the 2010 Nuclear Security 
Summit. NNSA, along with DOD and other U.S. Government 
departments and agencies, working with countries around the 
world, is implementing these commitments. As partners, we are 
engaged in a focused and intensified international effort to 
lock down or remove vulnerable nuclear materials. We are 
executing an integrated, prioritized strategy that aligns 
authorities, capabilities, and resources to address global 
nuclear threats.
    This three-tiered strategy covers the site, country, and 
global levels. NNSA takes a lead role in many of the activities 
that meet this goal, including removing or eliminating special 
nuclear material where possible, securing that material and 
providing critical support to the International Atomic Energy 
Agency.
    For fiscal year 2012, our budget request includes more than 
$1 billion to remove and prevent the smuggling of dangerous 
nuclear material around the world and enable NNSA to continue 
leading international efforts to implement more stringent 
standards for the physical protection of nuclear material and 
nuclear facilities worldwide.
    The President is also seeking $890 million for fissile 
materials disposition, which supports the continued 
construction of the mixed oxide fuel fabrication facility, 
waste solidification building, and efforts to baseline the pit 
disassembly and conversion project at the Savannah River site 
in South Carolina. Not only will these facilities be used to 
permanently eliminate more than 34 metric tons of U.S. surplus 
weapons-grade plutonium, this will be done in a way that 
produces electricity for American consumers. Similarly, as part 
of our broader nonproliferation effort, Russia will also be 
disposing of 34 metric tons of its surplus weapons plutonium in 
a way that will provide energy for Russia.
    Finally, this budget request directs more than $360 million 
to support the research and development required to create new 
technologies for detecting nuclear proliferation or testing and 
for monitoring compliance with nuclear nonproliferation and 
arms control agreements. To me, this last point is key. 
Investing in the future of the scientific and technical 
underpinnings of our program is critical to implementing the 
President's nuclear security agenda. This is serious business 
and we need the best minds in the country working at our 
national laboratories and sites to develop new tools that will 
keep the American people safe and enhance global security. 
Investing in a modern 21st century nuclear security enterprise 
is essential to preventing nuclear terrorism or nuclear 
proliferation.
    All of NNSA, including defense nuclear nonproliferation, 
defense programs, counterproliferation, and emergency response, 
and many other agencies outside NNSA, as we recently discussed, 
rely on the skills, people, and facilities of the DOE 
enterprise. For example, our nonproliferation mission to 
protect, remove, and eliminate weapon-useable material, the 
uranium and plutonium, depends on maintaining our scientific 
and technical capabilities in these areas. These infrastructure 
investments, such as the uranium processing facility and the 
chemistry and metallurgy research replacement facility, are 
critical to our enterprise and deserve your support.
    Madam Chairman, these are the highlights of our budget 
request as it relates to our nuclear nonproliferation programs. 
We recognize that we are making this request at a time of acute 
financial stress for our entire Nation and that this committee 
has many competing requests.
    As we work to invest in the future and implement the 
President's nuclear security agenda, we remain committed to 
improving the way we do business. We fully understand that we 
cannot come before this Congress and expect increased 
investments if we are not able to demonstrate our ability to 
spend those resources wisely.
    I am proud to say that improving how we do business is a 
priority for defense nuclear nonproliferation programs and 
we're seeing results. Last year our global threat reduction 
initiative became the first Federal program to receive the 
Project Management Institute's coveted Distinguished Project 
Award. Two weeks ago, our MOX program was honored with an 
environmental stewardship award from the State of South 
Carolina.
    This committee has also voiced concerns in the past about 
the level of our uncommitted carryover funds. I can report that 
we have made continuous improvements in that area over the past 
6 years and through diligent management efforts we have reduced 
the end-of-year uncommitted carryover funds from 15.5 percent 
in 2005 to 10.1 percent in 2010, while at the same time, seeing 
budget increases of 40 percent. This reduction puts the nuclear 
nonproliferation program well below the 13 percent threshold 
for uncommitted carryover funds established by DOE.
    The vision outlined in this budget request supports the 
full range of NNSA missions by investing in infrastructure, 
people, science, technology, and engineering required to fulfil 
our missions. I look forward to working with the members of the 
subcommittee to make NNSA's vision a reality and I look forward 
to any questions you may have.
    Thank you.
    [The prepared statement of Ms. Harrington follows:]
                Prepared Statement by Anne M. Harrington
    Madam Chairman, Ranking Member Portman, members of the 
subcommittee, thank you for the opportunity to present the fiscal year 
2012 President's budget request for the Department of Energy's (DOE) 
National Nuclear Security Administration's (NNSA) Office of Defense 
Nuclear Nonproliferation (DNN). This budget request will enable the 
NNSA to meet its commitments to the American people and our 
international partners to reduce nuclear and radiological dangers 
around the world. The request also provides the science, technology, 
and engineering capabilities necessary to allow us to address the 
broader national security challenges of the 21st century.
    While recognizing the economic challenges facing our Nation, the 
President has demonstrated through this fiscal year 2012 budget request 
his strong commitment to nonproliferation and nuclear security. This 
unprecedented investment in DNN's mission represents a commitment to 
implement the President's nuclear security agenda, but does so in a way 
that balances our highest priorities with continued focus on efficiency 
and effectiveness.
    During his speech in Prague in April 2009, the President unveiled 
an ambitious nuclear security agenda, which identified the need to 
prevent the proliferation of nuclear weapons and keep dangerous nuclear 
materials out of the hands of terrorists, as a top national security 
priority. Meeting this objective, however, requires international 
commitment and action. The success of the 2010 Nuclear Security Summit 
was the first concrete demonstration of broad international commitment, 
resulting in 47 heads of state coming together and jointly endorsing 
global nuclear security objectives. Today, there is a robust 
international effort underway to secure the most vulnerable nuclear 
material around the world and to build on the success of the 2010 
Summit.
    NNSA's vision is to make the world a safer place. The words are 
simple, but the challenges to realizing that vision are substantial. 
The Office of Defense Nuclear Nonproliferation's role in the NNSA 
mission is to leverage its technical expertise, creativity, and other 
unique capabilities and resources to confront the challenges of nuclear 
proliferation and the threat of nuclear and radiological terrorism 
around the world. Our strategy includes engaging our domestic and 
international partners in a global effort to secure the most vulnerable 
nuclear materials worldwide; impeding the proliferation of nuclear 
weapons technologies, information, materials and expertise; providing 
technical support to the President's nonproliferation and arms control 
agenda; developing a new framework for nuclear energy that minimizes 
proliferation risks; and advancing the science, technology and 
engineering base that supports DNN's missions.
          implementing the president's nuclear security agenda
    The fiscal year 2012 NNSA budget request includes $2.55 billion for 
Defense Nuclear Nonproliferation for fiscal year 2012 and $14.3 billion 
over the next 5 years to reduce the global nuclear and radiological 
threat by detecting, securing, safeguarding, disposing, and controlling 
nuclear and radiological material, as well as promoting the responsible 
application of nuclear technology and science. Each fiscal year from 
fiscal year 2012 until fiscal year 2016 has been analyzed for 
priorities to achieve Presidential and operational objectives. This 
includes stemming the risk of weapons-expertise proliferation through 
innovative science and technology partnerships. The budget request 
provides the resources required to continue making progress on the 
President's international effort to secure the most vulnerable nuclear 
material around the world within 4 years, a key national security goal.
    This budget request recognizes significant accomplishments of 
NNSA's nuclear nonproliferation programs in the past year and seeks the 
resources needed to continue to work toward the President's goals. NNSA 
along with the Department of Defense and other U.S. Government 
departments and agencies, working with countries around the world, is 
implementing Prague speech commitments to a focused and intensified 
international effort to lock down or remove vulnerable nuclear 
materials. We are executing an integrated, prioritized strategy that 
aligns authorities, capabilities, and resources to address global 
nuclear threats. This three-tiered strategy covers the site, country 
and global levels. NNSA takes a lead role in many of the activities 
that meet this goal, including removing or eliminating special nuclear 
material when possible, securing that material when not and providing 
critical support to the International Atomic Energy Agency.
    For example, this request provides the necessary resources to 
support commitments secured from international partners to remove all 
remaining highly enriched uranium (HEU) from Belarus, Ukraine, and 
Mexico by April 2012, and to carry out the removal of nuclear material 
from other countries. It also contributes to preventing nuclear 
terrorism by working with Russia and other countries to secure and 
eliminate vulnerable weapons-usable material. The budget request also 
provides resources to work with the Department of Defense to strengthen 
international nuclear security cooperation. It will enable NNSA, 
working with the International Atomic Energy Agency (IAEA), to continue 
leading international efforts to implement more stringent standards for 
the physical protection of nuclear material and nuclear facilities 
worldwide.
    The request of $2.55 billion is an increase of 10 percent from the 
fiscal year 2011 Continuing Resolution, and an increase of 19.6 percent 
over the fiscal year 2010 appropriation. This 10 percent, or $230.8 
million increase will support efforts to secure the most vulnerable 
nuclear materials within the President's stated timeframe. The NNSA 
budget request remains consistent with our overall strategy to ensure 
that programs supporting the President's commitment lead to an 
international effort to reduce nuclear dangers.
    In addition, the budget request supports the efforts of the Global 
Threat Reduction Initiative (GTRI) related to radiological material, as 
well as the activities of the International Nuclear Material Protection 
and Cooperation (INMP&C) program to enhance the ability of our foreign 
partners to detect nuclear smuggling both at fixed border crossings and 
internal checkpoints. The budget request also continues to support the 
Fissile Materials Disposition (FMD) U.S. plutonium disposition mission 
to include the three construction projects, as well as the U.S. uranium 
disposition program.
    Specifically, our $2.55 billion fiscal year 2012 request includes:

        <bullet> More than $508 million for GTRI to remove and secure 
        high-priority vulnerable nuclear material around the world in 4 
        years, accelerate additional conversions of HEU fueled research 
        reactors to the use of low enriched uranium (LEU) fuel, and to 
        provide a comprehensive approach to permanently deny terrorists 
        access to nuclear and radiological material at civilian sites 
        worldwide;
        <bullet> More than $890 million for the FMD program to dispose 
        of U.S. surplus plutonium and highly enriched uranium by 
        constructing a MOX Fuel Fabrication Facility and a Waste 
        Solidification Building, and developing a capability to 
        disassemble nuclear weapon pits and convert the material for 
        use in MOX fuel. The fiscal year 2012 request also supports 
        programmatic activities that are not part of the line item 
        construction projects but are essential to dispose of surplus 
        weapon-grade plutonium, including: MOX fuel qualification, 
        executing utility contracts, obtaining plutonium feedstock from 
        Los Alamos National Lab in advance of a full-scale pit 
        disassembly capability, obtaining depleted uranium oxide 
        feedstock, storage of feed materials, and transportation.
        <bullet> Over $571 million for the INMP&C program for 
        additional Material Protection Control & Accounting (MPC&A) 
        upgrades and sustainability support, expansion of MPC&A 
        cooperation with countries outside of Russia and the former 
        Soviet Union, and additional deployment of radiation detection 
        systems with enabling support for sustained operations to 
        combat illicit trafficking of nuclear and other radioactive 
        materials under the Second Line of Defense (SLD) program;
        <bullet> Over $417 million for the Nonproliferation and 
        Verification Research and Development (R&D) program to provide 
        the key technical support for the President's arms control and 
        nonproliferation agenda, as well as to provide funding for the 
        University of California pension obligations; and
        <bullet> Nearly $162 million for the Nonproliferation and 
        International Security (NIS) program to safeguard nuclear 
        material; ensure adequate security of U.S.-obligated nuclear 
        material provided to other countries and enhance work with 
        partners to strengthen security globally; control the spread of 
        WMD technologies, equipment, and expertise; and verify nuclear 
        reductions and compliance with international regimes, treaties, 
        and agreements.
                an integrated effort to achieve the goal
    Different people perceive the ``threat'' in different ways; we all 
have our views on how to make the world safer. At NNSA, we have formed 
our view collectively through discussions with our counterparts from 
across the U.S. Government. Working with a strong team from the 
National Security Staff and with the intelligence community, we have 
developed strategies and identified priorities for programmatic and 
diplomatic engagement. No matter what the risks and threats are, the 
most effective approach is to integrate our efforts and capitalize on 
our unique capabilities to work effectively across NNSA, within DOE and 
the interagency, and with our foreign partners. In that respect, the 
threat priorities of our international partners are also taken into 
account.
    As One-NNSA, all of NNSA's major components work together closely. 
For example, the Office of Defense Programs and DNN collaborate on 
approaches to transparency and monitoring for treaty-related purposes; 
DNN and the Office of Emergency Response work together to carry out 
training in partner countries. This pattern of collaboration is 
important because our missions are so closely interrelated and we 
because share resources across the Nuclear Security Enterprise. For 
example, investments that sustain the stockpile will also support our 
full range of nuclear nonproliferation missions. In addition to the 
substantial support that our National Laboratories and facilities 
receive from Defense Programs and other parts of DOE, DNN also makes a 
major contribution to preserving and developing world-class expertise 
that can support all of NNSA's missions. We must continue to invest in 
the future.
    We also have important common ground with our colleagues in the 
Offices of Nuclear Energy and Environmental Management at DOE as we all 
develop strategies to address the expansion of nuclear energy and the 
disposition of nuclear and radiological materials in a safe and secure 
way. We maintain constant contact with our partners throughout the 
interagency, particularly at the Departments of Homeland Security, 
State, and Defense, the Nuclear Regulatory Commission, and the National 
Security Staff (NSS). For instance, the NSS currently leads a strong 
interagency team that meets regularly to prioritize activities and to 
assess risk by material type and country, which in turn informs how we 
execute our programs. As the largest nonproliferation account in the 
government, NNSA's fiscal year 2012 budget request was developed with 
the interagency effort in mind and in the context of a well-defined 
scope of work within the President's timeframe for the 4-year effort.
    But no matter how coordinated and integrated our efforts are in the 
United States, none of our efforts would be possible without the full 
engagement and cooperation of our foreign partners. The United States 
cannot control knowledge, material and technology as we did in the 
past. Globalization requires us to pursue partnerships based on shared 
nonproliferation objectives.
    NNSA is one of several U.S. agencies actively working on the 
President's nonproliferation agenda, and has taken the lead in a number 
of areas. These capabilities are reflected in our fiscal year 2012 
budget request, including:
Securing Nuclear and Radiological Material from Theft and Diversion
    NNSA is the interagency leader in making sure that nuclear material 
worldwide is secured from theft and diversion at its source.
    Through GTRI, NNSA leads U.S. efforts to convert research and test 
reactors from HEU to LEU, remove excess or unwanted weapons-usable 
nuclear and radiological material, and enhance the security of risk-
significant quantities of nuclear and radiological materials in use at 
civilian sites around the world to help prevent terrorists from 
acquiring what they need to make a nuclear weapon or radiological 
``dirty bomb.'' Since President Obama's April 2009 Prague speech, NNSA 
has removed 963 kilograms of HEU and plutonium from 19 countries around 
the world. That is enough material for more than 38 nuclear weapons. 
Six countries have had all of their HEU removed since the Prague 
speech. In November 2010, NNSA completed a large-scale campaign to move 
spent fuel from Kazakhstan's BN-350 plutonium production reactor to a 
secure storage facility in eastern Kazakhstan. The spent fuel contains 
10 metric tons of HEU and three metric tons of weapons-grade 
plutonium--enough material for more than 775 nuclear weapons. NNSA 
plans to complete a number of important projects in fiscal year 2012, 
including the removal of all HEU from Ukraine, Belarus, and Mexico in 
cooperation with each of those countries. NNSA will continue efforts to 
remove HEU from Vietnam, Uzbekistan, Poland, and Hungary in 2013. In 
fiscal year 2012, NNSA will continue to lead U.S. efforts to secure or 
recover high-risk radiological materials, enhance security at an 
additional 158 buildings worldwide, and recover an additional 1,900 
disused or unwanted radioactive sealed sources here in the United 
States.
    The INMP&C program has two main components. Under Material 
Protection Control and Accounting (MPC&A), the program prevents nuclear 
terrorism by working in Russia and other regions of concern to secure 
and eliminate vulnerable nuclear weapons and weapons exploitable 
material. Under its SLD Program, NNSA works with international partners 
to deploy radiation detection systems at international crossing points, 
airports, and seaports, and to provide mobile systems for use at 
interior checkpoints to detect and deter the illicit transfer of 
nuclear and other radioactive materials. Training and sustainability 
support are also key components of this program. Since the President's 
2009 Prague speech, the program has completed MPC&A upgrades to 33 
buildings containing weapons-usable material in Russia; initiated new 
upgrades at a number of Russian facilities; placed a cumulative total 
of 25 MPC&A regulations in development in Russia and other FSU 
countries to strengthen nuclear security safeguards; cooperated with 
the FBI to provide mobile detection training in four countries; 
deployed radiation detection systems at 162 sites; downblended over two 
metric tons of HEU to LEU in Russia; and initiated cooperation with 
India and China to develop nuclear security Centers of Excellence to 
help those nations become regional centers on nuclear security culture 
and training. The budget request will allow INMP&C to: complete MPC&A 
upgrades at 3 additional buildings in Russia with weapons usable 
nuclear material; provide additional MPC&A upgrades at 25 Russian 
nuclear material sites; continue to support the transition of security 
upgrades to sustainable operations at 76 sites in Russia, Kazakhstan, 
Belarus, and Ukraine; complete Russian Ministry of Defense training 
centers (Ochakovo, Krasnoyarsk, Abramovo); continue Russian inspections 
support activities and training, and support for secure transportation 
sustainability, measurement methodologies, and protective force 
programs; and will downblend an additional 1 MTs of HEU. SLD plans to 
install detection systems in 30 foreign strategic transit and border 
sites (cumulative total of 448 of 650 planned), to complete 3 Megaports 
in Cameroon, Vietnam, and Italy (for a cumulative total 48 of 100 
planned), and to deploy mobile detection systems in 8 more countries.
    In fiscal year 2012, marking one of the first major accomplishments 
of the 2010 Nuclear Security Summit Work Plan, NNSA led the U.S. 
Government and international efforts to finalize the fifth revision of 
the IAEA's Nuclear Security Recommendations on Physical Protection of 
Nuclear Material and Nuclear Facilities (IAEA Information Circular 
225). In fiscal year 2012, through the NIS Program, NNSA will lead U.S. 
and global efforts to implement INFCIRC/225/Rev.5 and work closely with 
foreign partners to operationalize its recommendations. Such efforts 
will include facilitating the exchange of information on best practices 
for securing nuclear material in facilities and in transport. NNSA's 
NIS program will continue to lead U.S. interagency physical protection 
assessment visits to other countries that have received U.S.-obligated 
nuclear material under Section 123 Agreements for Peaceful Nuclear 
Cooperation. In doing so, NNSA and its predecessor organizations will 
have led over 125 visits to 48 countries since 1974. Additionally, NIS 
will continue to engage foreign partners and multilateral organizations 
on nuclear security initiatives globally through technical projects and 
nuclear security training activities.
    NNSA's Next Generation Safeguards Initiative (NGSI) is working to 
strengthen the international safeguards system, a central pillar of the 
global nuclear nonproliferation regime. Safeguards ensure the timely 
detection of diversion of nuclear materials from peaceful activities. 
As NGSI works to advance the President's call in Prague for ``more 
resources and authority for international inspections,'' it is 
simultaneously creating the next generation of dedicated 
nonproliferation experts, developing cutting edge technology for use by 
the IAEA and other safeguards organizations, and working with 
international partners to strengthen the implementation of IAEA 
safeguards.
Preventing Nuclear and Radiological Smuggling
    As a complement to our facility-based physical security efforts 
that serve as a first line of defense, NNSA executes a number of 
programs that provide an additional layer of defense by detecting and 
preventing illicit transfers of nuclear-related material, technology 
and equipment. These programs help implement the President's call 
during his April 2009 Prague speech call to build on efforts to break 
up nuclear black markets and detect and intercept dangerous materials 
in transit.
    Within INMP&C, the SLD Core program cooperates with foreign 
partners to install radiation detection equipment at borders, airports, 
and strategic ports in Russia, other former Soviet Union states, 
Eastern Europe, and other key countries, and provides mobile detection 
capability to law enforcement as well as related training and support. 
The SLD Megaports Initiative likewise cooperates internationally to 
deploy radiation detection equipment and provide related training to 
key strategic and high-volume ports. The fiscal year 2012 budget 
request provides for SLD installations at an additional 30 sites in 
Estonia, Kazakhstan, Lithuania, Latvia, Romania, Bulgaria, Ukraine, 
Kyrgyzstan, Poland, Mongolia, Croatia, and Moldova, mobile detection 
capability to 8 countries, and completion of Megaports installations 
and activities at 3 additional foreign seaports with ongoing 
installation activities at an additional 13 ports. The SLD Program will 
continue to provide some level of sustainability support to over 250 
sites in over 40 countries.
    NNSA's R&D program funds research to deliver nuclear detectors that 
are more sensitive, have better discrimination and are easier to deploy 
facilitating the discovery and identification of contraband radiation 
materials. The R&D program also delivers state-of-the-art imaging 
equipment that identifies chemical trails at a distance.
    Within NIS, the International Nonproliferation Export Control 
Program (INECP) supports U.S. Government efforts to combat illicit 
trafficking of dual-use commodities required to manufacture WMD and 
their means of delivery. Specifically, INECP improves partners' export 
control systems and their ability to prevent illicit smuggling--
particularly threats posed by black market networks. Notably, INECP 
collaborates with partners to develop sustainable national training 
capabilities, including outreach to strategic industries to improve 
compliance and efforts to strengthen our partners' frontline inspection 
and other enforcement capabilities. Since 2001, INECP has trained over 
17,000 frontline personnel to recognize WMD dual-use commodities in 65 
countries, 19 of which have adopted domestic programs.
    Moreover, to help governments investigate the illicit use of 
nuclear materials and deter illicit trafficking of those materials, 
NIS's Confidence-Building Measures Program is advancing international 
cooperation in nonproliferation nuclear forensics. Nuclear forensics 
applies scientific techniques to identify unique characteristics of 
nuclear and radioactive material. Promoting cooperation among countries 
in nuclear forensics can produce investigative leads to link a seizure 
by one country with diversion in another, helping to better prosecute 
those involved. NIS's Confidence-Building Measures Program sponsors 
technical collaborations to strengthening the global capacity for 
effective nuclear forensics and increase data sharing.
Permanent nuclear material disposition
    Part of the challenge in making the world a safer place is to be 
ever mindful of the challenges associated with disposing of large 
quantities of Cold War nuclear weapons materials. Disposition not only 
permanently reduces the risk that these materials could be stolen or 
diverted for use by rogue nations or terrorists but it also allows us 
to reduce the number of sites where these materials are stored thereby 
significantly reducing the cost associated with guarding and storing 
the material. In this regard, the President is seeking $890 million for 
the FMD program, which supports continued efforts to down-blend surplus 
U.S. HEU as well as to continue construction of the MOX Fuel 
Fabrication Facility, Waste Solidification Building, and efforts to 
disassemble nuclear weapons pits at the Savannah River Site in South 
Carolina. Not only will these facilities be used to permanently 
eliminate more than 34 metric tons of surplus weapons plutonium, they 
will do so in a way that produces electricity for consumers right here 
in the United States. Similarly, as part of our broader 
nonproliferation effort, Russia will also be disposing of 34 metric 
tons of surplus weapons plutonium in a way that will provide energy for 
Russia. As I like to say, this is the ultimate swords to plowshares 
program, and a key element of the President's nuclear nonproliferation 
agenda.
Ensuring Transparent and Verifiable Compliance
    The budget request allows NNSA to provide national leadership with 
continuous, global, real-time assurance that nuclear test agreements 
are respected through the U.S. Nuclear Detonation Detection System 
satellite payloads. DNN is leading interagency re-evaluation of system 
requirements and implementation to sustain needed capability at an 
affordable cost. The Nuclear Detonation Detection seismic model and 
sensor development raises confidence of policy makers about the nature, 
magnitude, and location of explosions that could be tests of nuclear 
devices.
    The budget request will also support the monitored elimination of 
an additional 30 metric tons of Russian weapons-grade HEU in fiscal 
year 2012. This is one of the final steps toward completing the U.S.-
Russia HEU Purchase Agreement in 2013. The Agreement has been one of 
NNSA's most successful nonproliferation efforts to date and is on track 
to convert 500 metric tons Russian weapons-grade HEU, the equivalent of 
20,000 nuclear weapons, into nuclear fuel used to generate nearly 10 
percent of all U.S. electricity.
    The 1997 Plutonium Production Reactor Agreement (PPRA) between the 
United States and the Russian Federation has a goal of eliminating 
plutonium production for use in weapons. The Agreement has monitoring 
provisions to ensure that shutdown U.S. and Russian production reactors 
remain shutdown and that at least nine metric tons of Russian plutonium 
oxide produced from the last three operating Russian production 
reactors is not used in weapons. DOE is the Executive Agent for the 
PPRA, is a member of the U.S. component of the bilateral Joint 
Implementation and Compliance Commission that oversees PPRA activities, 
supplies technical experts for the monitoring visits in Russia, and 
hosts the Russian monitors at DOE sites during the shutdown reactor 
visits.
    An important PPRA milestone has been reached--the three remaining 
operating Russian plutonium production reactors recently were shut 
down. The two reactors in Seversk were shut down in 2008, and the 
closure of the last, at Zheleznogorsk, was announced at the Nuclear 
Security Summit in April 2010. In accordance with the Agreement, those 
reactors will be transitioned to the established PPRA monitoring regime 
to ensure that they remain permanently shutdown. Of the 27 plutonium 
production reactors covered in the Agreement, including 14 in the 
United States and 13 in Russia, 11 have already been decommissioned to 
the point that they have been removed from monitoring and will never be 
used again for plutonium production. The United States and Russia will 
continue to monitor the remaining reactors until they are similarly 
decommissioned and the subject plutonium oxide is transitioned to 
another monitoring regime or is eliminated.
Technical Support to the President's Nonproliferation and Arms Control 
        Agenda
    DNN provides technical expertise, drawing from NNSA's nuclear 
security enterprise, as well as negotiating and policy expertise, to 
support the development, negotiation, and implementation of treaties 
and agreements, including the New START Treaty with Russia. While 
contributing to overall U.S. national security objectives, our focus is 
to meet our current and potential future treaty commitments and 
obligations while at the same time continuing to ensure the safety, 
security, and effectiveness of the U.S. nuclear weapons stockpile.
    Drawing upon our expertise, including work in support of past arms 
control and nonproliferation agreements, DNN is playing an essential 
role in technology development to address future arms control and 
nonproliferation challenges. This includes developing the next 
generation of radiation detection equipment, advanced tamper indication 
and unique identification capabilities, and methodologies to support 
potential future warhead and material identification and verification 
requirements. We are also capitalizing on the resources in place at the 
National Center for Nuclear Security in Nevada. Such resources enable 
us to advance and demonstrate capabilities to address verification, 
monitoring, and transparency requirements by increasing confidence in 
our ability to detect and discriminate signatures of interest and 
capabilities that address technical nuclear forensics requirements and 
other nonproliferation initiatives, as described in the Nuclear Posture 
Review. We work in close cooperation with NNSA's Defense Programs and 
our U.S. Interagency counterparts to develop initiatives that 
accomplish U.S. objectives while minimizing any potential impacts 
across our own enterprise.
Investing in our future
    The Nuclear Science and Security Consortium builds a stable 
pipeline of highly trained nuclear nonproliferation technical expertise 
for the NNSA laboratory system, sponsors basic research in nuclear 
nonproliferation, and bridges the nuclear nonproliferation knowledge 
bases in academia and the NNSA Laboratory system. By ensuring DNN 
maintains a vital R&D program to fund cutting edge nonproliferation 
technologies in the National Lab complex, we also make an investment in 
human capital development at the labs. Challenging research 
opportunities and world class facilities enable our labs to attract and 
hire the best and brightest young research scientists, technicians, and 
engineers, and thereby renew the workforce for generations to come. In 
addition, the DNN programs engage with national laboratories and 
facilities across the DOE complex to ensure the long term capabilities 
and expertise necessary to serve all of our missions.
International Engagement
    We are also continuing to build upon our existing partnerships with 
foreign colleagues and to initiate new partnerships. Our traditional 
defense partnership with the United Kingdom, for example, is decades 
old. Our collaboration on technologies and methodologies to support 
monitoring and verification initiatives is now in the beginning of its 
second decade, and provides an essential mechanism to evaluate and test 
approaches in alternative environments. We hope to build upon this 
success by engaging with other key allies and partners as we work 
toward addressing the range of global nuclear security challenges, 
including potential future arms limitations and reductions agreements.
    NNSA strives to build strong cooperative relationships with our 
international partners, both old and new. DNN's NIS program provides 
training and other support to enhance the capabilities of our partners 
to meet the commitments they made at the 2010 Nuclear Security Summit. 
The pledges from Japan and the Republic of Korea to develop Centers of 
Excellence for nuclear security and nuclear nonproliferation are two 
examples as NNSA is collaborating with both to develop nuclear security 
training curriculum, nuclear security test beds, and international 
workshops in nuclear security for their respective centers. The Obama 
administration is also working closely with strategic partners such as 
China and India to advance regional centers of excellence, with the 
overarching goal of spurring deeper engagement in preventing the spread 
of WMD-related material, technology, equipment and expertise.
    As outlined in his 2009 Cairo speech, the President has also called 
for a more comprehensive engagement with Middle East and North African 
countries, stressing science and technology partnerships focused on 
issues of common concern. Since 2003, NNSA has advanced regional 
security cooperation through the Middle East Scientific Institute for 
Security (MESIS), formerly known as the Cooperative Monitoring Center, 
in Amman, Jordan. As a regional center of excellence, MESIS provides a 
forum for training and dialogue on regional security and proliferation 
concerns, including export controls, border security, and nuclear 
safety, security and safeguards. It marshals regional, U.S., and 
international resources to cultivate indigenous nonproliferation 
expertise. The Institute also facilitates workshops and training 
efforts for other NNSA and U.S. Government nonproliferation programs, 
and leverages U.S. Government and international nonproliferation 
efforts in the region.
Preparing for the Threats We Don't Know
    As threats evolve and our knowledge of the world changes, NNSA must 
constantly re-evaluate its efforts to ensure that we have the 
flexibility to accomplish our goals. This constant re-evaluation must 
stretch from advanced technology R&D to working with our international 
partners to prepare for unknown threats by asking them to consider the 
plausible range of adversary capabilities, strategies, and tactics--
including insider and cyber capabilities--when designing security 
systems. In this way, all of DNN's programs, along with the 
complementary activities of our partners throughout NNSA, DOE, and the 
rest of the U.S. Government, are forward looking and prepared for any 
eventuality.
                               conclusion
    NNSA carefully evaluates its security needs in a fluid, uncertain, 
and challenging international landscape. In coordination with the rest 
of the U.S. Government, NNSA has charted a path forward for DNN that 
shows our unwavering commitment to our Nation's security and enhances 
our formidable capabilities to address broader security challenges.
    The NNSA is a technically-based organization with a strong nuclear 
heritage that serves as the base for our contribution to a wide range 
of national security solutions. NNSA is rooted in the management of our 
Nation's nuclear weapons stockpile and the application of nuclear 
energy for naval propulsion. Additionally, NNSA capabilities support a 
broad range of U.S. and international activities that address existing 
dangers, identify and prepare for future challenges, and advise the 
U.S. Government and our international partners on nuclear security 
matters.
    This budget request takes DNN into the future and strengthens the 
capabilities that are themselves integral elements of our national 
security. The challenge is to retain the capabilities that continue to 
be essential, and to identify and develop those capabilities that are 
needed for the future.

    Senator Hagan. Thank you.
    Mr. Myers.

  STATEMENT OF KENNETH A. MYERS III, DIRECTOR, DEFENSE THREAT 
            REDUCTION AGENCY, DEPARTMENT OF DEFENSE

    Mr. Myers. Madam Chairman, Ranking Member Portman: It is an 
honor to be here today to address the countering WMD mission 
performed by DTRA and the U.S. Strategic Command (STRATCOM) 
Center for Combating WMDs. I serve as director for both of 
these organizations, which are collocated at Fort Belvoir, VA. 
We work together to reduce WMD threats at their source, provide 
capabilities to deter, detect, interdict, and defeat them, and 
develop means for minimizing the effects and consequences of 
such attacks. We provide subject matter expertise and 
capabilities at the global, national, and battlefield levels. 
We conduct technology development to counter WMD threats. We 
also help maintain a safe, secure, and effective U.S. nuclear 
deterrent.
    The threat is very real. The consequences of a WMD attack 
would cause mass casualties, have a crippling economic impact, 
and cause major sociological harm. As General Bob Kehler, the 
Commander of STRATCOM, recently told the full committee: ``Of 
the threats we face, WMD clearly represent the greatest threat 
to the American people, particularly when they are pursued or 
possessed by violent extremists or state proliferators.''
    We have an increasingly effective national strategy for 
countering this threat. It harnesses expertise across the whole 
government and the international community. Our focus is on 
building additional and more effective barriers between the 
threat and the American people. Our team is truly a unique, 
agile, and dynamic institution. As you walk down the halls of 
our facilities, you will see nuclear physicists, 
microbiologists, and special forces operators working together 
to solve complex problems.
    If you spend a day with us, this is what you might 
experience: At 7:30 a.m., senior leadership assembles in our 
24-7 operations center for briefings on ongoing activities 
around the world and intelligence updates. In the briefing a 
map is projected displaying the location of our teams around 
the world. Status updates are provided for ongoing real world 
exercises and testing, and a detailed overview of all requests 
for information for reachback support from across the entire 
government.
    Next door in a vault, subject matter experts of the 
reachback team are working on a request from a combatant 
commander for plume modeling analysis on a threatened chlorine 
attack against U.S. forces. At the same time, we are overseeing 
the Nunn-Lugar program's elimination of a Typhoon-class missile 
submarine in northern Russia. The submarine was armed with 20 
intercontinental missiles carrying 200 nuclear warheads, each 
capable of destroying an American city. Today it is being 
dismantled piece by piece.
    Two thousand miles to the southeast, at the Nunn-Lugar 
Chemical Weapons Destruction Facility in Siberia, 152-
millimeter artillery rounds containing VX nerve agent are being 
destroyed as the program eliminates the 2 million chemical 
weapons stored there. In the Mediterranean, our personnel are 
observing a proliferation security initiative exercise, where 
they are focused on stopping the potential trafficking of 
nuclear weapons material.
    Half a world away in the Straits of Malacca, together with 
the U.S. Navy and a Southeast Asian partner, we successfully 
completed the test of a new nuclear material detector developed 
by our research and development enterprise.
    At the U.S. naval submarine base at King's Bay, Georgia, we 
are preparing for a Russian inspection under the terms of the 
New START treaty. Across the planet, an inspection team has 
just arrived in Russia, en route to a base in Siberia to 
inspect warheads of deployed ballistic missiles or heavy 
bombers.
    In the Middle East, a team is supporting a U.S. Central 
Command exercise to interdict a WMD shipment, while another 
team is conducting a vulnerability assessment of a critical 
U.S. command and control facility. At White Sands Missile Range 
in New Mexico, personnel are preparing to oversee a live test 
drop of a 30,000-pound massive ordinance penetrator by a U.S. 
Air Force B-2 bomber against a tunnel facility that replicates 
a known underground target in a potentially hostile country.
    In Africa, at the request of the State Department, we are 
assisting a central African nation in improving the safety, 
security, and accountability of its manportable anti-aircraft 
missiles and other small arms. In East Africa, we are part of a 
U.S. interagency team discussing plans with their host 
counterparts for safety and security improvements at a facility 
where dangerous pathogens are potentially vulnerable to 
terrorist threats.
    Madam Chairman, Senator Portman, what I have described here 
are real examples of the practical differences made by our team 
on a daily basis. In closing, we could not do our job without 
your strong and continued support. I thank you for authorizing 
our full fiscal year 2011 budget request and hope that we will 
earn your support for the fiscal year 2012 request.
    I'd be pleased to answer your questions.
    [The prepared statement of Mr. Myers follows:]
               Prepared Statement by Kenneth A. Myers III
                              introduction
    Madam Chairman, Ranking Member Portman, and members of the 
subcommittee, it is an honor to be here today to address the Countering 
Weapons of Mass Destruction (CWMD) mission performed by the Defense 
Threat Reduction Agency (DTRA) and U.S. Strategic Command Center for 
Combating WMD (SCC-WMD).
    The threat posed by nuclear, radiological, biological, and chemical 
weapons is immediate, growing in scope, and evolving in its potential 
applications. Those who wish to harm us understand that the use of such 
weapons could result in immense loss of life and enduring economic, 
political, and social damage on a global scale. They have stated and 
demonstrated their intent to acquire and use WMD against us. For 
example, the fall 2010 issue of the magazine ``Inspire . . . and 
Inspire the Believers,'' published by al Qaeda, contains the following 
passage: ``For those mujahid brothers with degrees in microbiology or 
chemistry lays the greatest opportunity and responsibility. For such 
brothers we encourage them to develop a weapon of mass destruction, 
i.e., an effective poison with the proper method of delivery . . . Due 
to the extreme importance of moving the war with America over to the 
next stage, the state of weapons of mass destruction, we shall In Sha' 
Allah cover such topics in more detail in our upcoming issues.''
    The United States has a national strategy that harnesses the 
Counter WMD (CWMD) expertise and capabilities across the U.S. 
Government and the international community. The President has 
challenged us to secure vulnerable nuclear materials across the globe 
and reduce the likelihood and consequences of biological attacks. In 
addition, focused efforts by the U.S. Government and other parties to 
the Chemical Weapons Convention (CWC) are destroying their chemical 
weapons. The Department of Defense (DOD) in recent years has better 
organized itself to perform the CWMD mission to include more 
streamlined policy development, mission oversight, requirements 
identification, WMD intelligence fusion, investment prioritization, 
planning and exercising, and CWMD mission execution. Additionally, DOD 
is working more closely with partners across the U.S. Government and 
overseas to counter WMD threats.
                defense threat reduction agency mission
    The mission of DTRA is to safeguard America and its allies from WMD 
(chemical, biological, radiological, nuclear weapons) and from high-
yield explosives by providing capabilities to reduce, eliminate, and 
counter these threats and mitigate their effects.
    DTRA is the DOD's center of expertise for the CWMD mission and is a 
national asset in terms of its unique CWMD knowledge and capabilities. 
The agency's programs and activities span the scope of the full 
national response: nonproliferation--reduction of WMD threats at their 
source; counterproliferation--the deterrence, interdiction, and defeat 
of WMD threats; and consequence management--the minimization of the 
effects of WMD attacks and the mitigation of their consequences. DTRA 
provides CWMD subject matter expertise at global, national, regional, 
local, and battlefield levels; performs CWMD-related technology 
development and integrates that technology with operational needs; 
provides planning assistance for the warfighters; and helps maintain a 
safe, secure, and effective U.S. nuclear deterrent. Today, more than 
ever, DTRA is working closely with our DOD, interagency, and 
international partners to build more effective barriers between WMD 
threats and the American people and our allies.
    The agency has approximately 2,000 military and civilian personnel 
located primarily in Virginia, New Mexico, and Florida, but also at 17 
more locations across the globe. Our budget request for fiscal year 
2012 is $1.487 billion and comprises Defense-wide Research, 
Development, Test and Evaluation, Operations and Maintenance, 
Procurement, and Nunn-Lugar Cooperative Threat Reduction (CTR) 
appropriation accounts. In addition, DTRA executes the $504.747 million 
Science and Technology (S&T) portion of the DOD Chemical and Biological 
Defense Program (CBDP) and serves as the funds manager for the 
remainder of that program's funding, $1.021 billion. Therefore, the 
total DTRA resource portfolio is approximately $3 billion.
    DTRA performs its programs in response to direction provided by the 
Office of the Secretary of Defense (OSD). As the Director of DTRA, I 
report through Mr. Andrew Weber, the assistant Secretary of Defense for 
Nuclear, Chemical, and Biological Defense Programs, to the Under 
Secretary of Defense for Acquisition, Technology and Logistics. Because 
DTRA conducts CWMD-related S&T development, we also work in partnership 
with the Assistant Secretary of Defense for Research and Engineering. 
In addition, as we are executing programs that implement DOD and 
national security policy, DTRA has a close partnership with the 
assistant Secretary of Defense for Global Strategic Affairs in the 
Office of the Under Secretary of Defense for Policy. Our close 
relationship to the Intelligence Community is also vital in terms of 
assisting that community in better assessing WMD threats and, thereby, 
better informing our planning and mission support.
    DTRA is also the DOD Combat Support Agency charged with providing 
CWMD expertise and support to the Joint Chiefs of Staff, the Military 
Services, and the combatant commanders. While we serve all combatant 
commanders, we work most closely with the six Geographic Combatant 
Commanders, U.S. Special Operations Command (SOCOM), and STRATCOM.
            u.s. strategic command center for combating wmd
    DTRA's roots reach to the early days of the Cold War when it 
provided technical and operational nuclear weapons effects expertise to 
the Military Services. This assistance was and continues to be provided 
to the Services and also STRATCOM.
    In late 2005, the Secretary of Defense assigned the Commander, 
STRATCOM, the responsibilities for integrating and synchronizing DOD 
CWMD efforts in support of U.S. Government objectives. The Commander, 
STRATCOM turned to DTRA for its CWMD expertise and established the U.S. 
Strategic Command Center for Combating WMD (SCC-WMD). On 31 January 
2006, the Secretary of Defense assigned the DTRA Director to serve in 
the additional capacity as the Director, SCC-WMD under the authority, 
direction, and control of the Commander, STRATCOM. The SCC-WMD is 
colocated with DTRA at the Defense Threat Reduction Center on Fort 
Belvoir to leverage the agency's technical expertise and to provide a 
seamless partnership between the two organizations.
    The mission of the SCC-WMD is to synchronize planning for the 
counter-WMD mission across DOD in conjunction with the entire U.S. 
Government's effort in the field. The SCC-WMD is responsible for 
establishing technical support and providing analysis of the global 
CWMD mission to the combatant commanders, Office of the Secretary of 
Defense, and the Joint Staff. The Center's approximately 70 military 
and civilian personnel coordinate global CWMD operations support; plan 
against designated WMD threats; develop and maintain a global CWMD 
concept of operations; provide military representation to U.S. national 
agencies, commercial entities, and international agencies for matters 
related to CWMD efforts; advocate for CWMD capabilities; integrate 
theater security cooperation activities, deployments, and capabilities 
that support campaigns to combat WMD; and execute CWMD operations, as 
directed.
    Twice each year, the SCC-WMD hosts the Global Synchronization 
Conference, a series of planning sessions that bring together hundreds 
of CWMD leaders from across the U.S. Government and several partner 
nations. Participants work on specific issues in focus groups, develop 
desired outcomes and solution paths, and make meaningful progress on 
solution implementation between conferences. Achievements across recent 
conferences include development of a DOD-wide CWMD Campaign plan from a 
framework document to a detailed plan with goals, tasks, and 
performance standards that will enable us to assess CWMD mission 
progress; the drafting of health-based chemical, biological, 
radiological, and nuclear (CBRN) decontamination clearance standards 
for unrestricted operations of U.S. Transportation Command airlifters; 
and an interagency biosurveillance indications and warning exercise 
that clarified for CWMD planners the roles of the intelligence and 
medical communities in responding to a biological event.
    The SCC-WMD also supports WMD Elimination operations undertaken in 
a hostile or uncertain environment to systematically locate, 
characterize, secure, and disable or destroy WMD programs and related 
capabilities. Its Joint Elimination Coordination Element (JECE) 
provides joint expertise and support in the development, training, and 
exercising of WMD Elimination related plans, operations, and forces. 
The SCC-WMD and DTRA are providing assistance to the Commander, 
STRATCOM, who was tasked to establish and maintain Standing Joint Force 
Headquarters for WMD Elimination as called for by the Quadrennial 
Defense Review.
    Additionally, the Center is a key facilitator of the Proliferation 
Security Initiative (PSI), an international effort by 98 countries to 
stop trafficking of WMD, their delivery systems, and related materials 
to and from states and non-state actors of proliferation concern. The 
PSI Support Cell assists combatant command staffs in developing, 
planning, and executing PSI exercises; assists OSD and the Joint Staff 
in planning and executing international PSI exercises involving other 
U.S. Government departments and agencies; and provides subject matter 
expertise to international PSI meetings and activities.
                  recent dtra/scc-wmd accomplishments
    I am pleased to report that DTRA and the SCC-WMD work together as a 
fully integrated team. As a team we have assisted the development of 
more efficient and effective DOD and combatant commander CWMD plans; 
advanced the means for assessing and exercising CWMD capabilities; 
shaped and advocated for CWMD requirements; and provided improved PSI 
planning support.
    Other recent accomplishments include:

        <bullet> DTRA successfully transitioned the Massive Ordnance 
        Penetrator (MOP) to the United States Air Force. The MOP is a 
        30,000-pound conventional penetrating weapon designed to 
        provide substantial improvements in accuracy and lethality over 
        current weapons in the arsenal to defeat hardened, deeply 
        buried targets.
        <bullet> DTRA responded this past year to over 1,600 ``reach 
        back'' requests for CWMD expertise and WMD effects analysis 
        from OSD, the Joint Staff, the combatant commanders, National 
        Guard WMD Civil Support Teams (WMD-CSTs), and other DOD and 
        interagency customers. This is an over four-fold increase in 
        numbers of requests from when we began providing this expertise 
        several years ago. In addition, our reach back customers are 
        asking for more detailed information and analysis, and 
        expecting faster turn around times. We have provided expertise 
        and supported events ranging from the wars in Iraq and 
        Afghanistan to the Gulf Oil spill to the Super Bowl and the 
        State of the Union Address.
        <bullet> Without missing a beat in executing our daily mission, 
        we concurrently responded to events in Libya, supporting 
        Operations Odyssey Dawn and Unified Protector, as well as the 
        consequences of the earthquake and tsunami in Japan, by 
        supporting Operation Tomodachi. At the peak level of activity, 
        over 200 DTRA and SCC-WMD personnel daily supported 33 
        liaisons, CWMD planners, JECE personnel, and consequence 
        management experts deployed to the U.S. Africa Command in 
        Germany, as well as the U.S. Pacific Command, U.S. Forces Japan 
        (USFJ) and the U.S. Embassy in Tokyo. We responded to well over 
        500 requests for information in support of both operations. In 
        addition, we recommended consequence management technologies 
        for consideration by the Commanders, U.S. Pacific Command and 
        USFJ. Our ability to support these events at opposite ends of 
        the earth, on short notice, and on a continuing basis while 
        still meeting other mission requirements demonstrates the 
        agility and professionalism of the DTRA/SCC-WMD team.
                       dtra's new strategic plan
    Many organizations within DOD and across the U.S. Government 
contribute in some way to countering WMD threats. With a fulltime focus 
on CWMD, DTRA provides the core of the DOD expertise for countering WMD 
threats. Rather than duplicating capabilities and expertise that exist 
elsewhere inside and outside the department, DTRA partners with these 
organizations, leveraging their expertise and efforts and making the 
full scope of our knowledge and capabilities available to them. As 
threats evolve and budgets tighten, we must deepen existing 
relationships and build new partnerships across the department and 
throughout the U.S. Government and with our friends and allies 
overseas. We also understand that we need to be more effective and 
efficient in how we perform our mission. Two examples of this are our 
ongoing effort with the Department of Energy's National Nuclear 
Security Administration (NNSA) on opportunities for: (a) collaborative 
R&D on nuclear-related threats; and (b) joint offices that will reduce 
required space in U.S. embassies or the need to rent commercial office 
space abroad. Both departments and the United States will benefit.
    The new DTRA Strategic Plan, released last November, recognizes 
today's realities. It will provide for forward movement in concert with 
our DOD, interagency, and international partners; facilitate more 
efficient and effective mission execution; and underpin our fiscal year 
2012 budget request. At the heart of this plan are three goals.

Goal 1--Adapt to and shape the dynamic Global Security Environment
    DTRA cultivates interconnected, mutually supportive partnerships to 
counter WMD threats. We must focus on developing new and expanding 
existing bilateral and multilateral partnerships to promote broader 
international cooperation on nonproliferation, counterproliferation, 
and consequence management; support the cooperative elimination of WMD 
threats abroad; improve the security and accountability of vulnerable 
nuclear, biological, and chemical material globally; and improve 
strategic global situational awareness to respond to emerging threats.
    As the revolution in the life sciences advances enabling 
technologies and the ability to exploit these technologies becomes 
increasingly available, there is the urgent need to provide improved 
protection against naturally occurring extremely dangerous pathogens or 
newly created biological materials. As American troops are called upon 
to operate around the world, disease surveillance becomes an even more 
important aspect of force protection.
    Guiding these efforts is a strategy built upon our success with the 
Nunn-Lugar CTR Program, which is expanding to include new partnerships 
beyond the former Soviet Union (FSU) and greater focus on reducing the 
threat of biological weapons. This innovative cooperative program for 
reducing WMD threats has an impressive history of success. In the FSU, 
the Nunn-Lugar program has deactivated 7,599 nuclear warheads; and 
destroyed 2,367 ballistic missiles and strategic air-to-surface 
missiles, 155 strategic bombers; 32 ballistic missile submarines, and 
678 silo and mobile missile launchers. In addition, 24 Russian nuclear 
weapons storage sites have received security upgrades as have 19 former 
biological weapons and health facilities. Four former Soviet biological 
weapon production facilities have been eliminated or converted. Twenty-
three disease surveillance labs across the FSU have been built and 
equipped to enhance early detection of biological incidents. In 
addition, over 17,000 tons of chemical weapon agents and 819,000 
chemical weapon rounds have been destroyed either in Russia or Albania.
    While Nunn-Lugar activities will continue in the FSU, the program 
is expanding to new regions and increasingly focused on cooperative 
efforts to reduce biological threats. The Cooperative Biological 
Engagement (CBE) Program is working with new partner countries to build 
capacity that improves safe and secure diagnosis of dangerous disease 
outbreaks and to gain an understanding of their indigenous pathogens. 
These Nunn-Lugar efforts will directly contribute to improved force 
protection for our military personnel--a top priority for the Services 
and the combatant commands as expressed by the Commander, U.S. Africa 
Command, in a 4 January 2011 letter to Senator Richard Lugar, who had 
visited diagnostic and research laboratories in East Africa in November 
2010. In this letter, General Kip Ward stated: ``Your call for the 
United States to work together with African partners and provide 
financial support to mitigate potential bio-terrorism threats was very 
timely and highlights a key area for intensified engagement now. I 
share your concern that bio-security should be enhanced, and quickly, 
so that al Qaeda and other terrorist groups in the region are denied 
access to deadly pathogens that may cause large-scale human suffering, 
death, and economic chaos.''
    To accomplish this, we rely on the knowledge, skills, capabilities, 
and, in some cases, existing relationships with these nations that our 
partners across the U.S. Government--including the Departments of 
State, Energy, Health and Human Services, and Agriculture--already 
possess. Our efforts simultaneously aid the regional strategic 
objectives of the combatant commands by increasing biosafety for 
partner nation populations.
    Objectives under this goal include:

        <bullet> In collaboration with the NNSA, support President 
        Obama's 4-year nuclear lockdown goal, both with existing 
        partners in the FSU and with new partners like China and India.
        <bullet> Initiate and strengthen strategic relationships in 
        conjunction with our interagency partners to explore 
        collaborative efforts to prevent, reduce, and respond to WMD 
        threats.
        <bullet> Initiate and expand CBE programs and relationships 
        with, among others, Kenya, Uganda, Pakistan, Afghanistan, and 
        India to secure and consolidate collections of extremely 
        dangerous pathogens and their research in the minimum number of 
        secure laboratories and build capacity to quickly diagnose and 
        report natural occurring or deliberate bio-threats.
        <bullet> In concert with the CBDP develop and expand 
        biosurveillance technologies that encompass early detection, 
        early information sharing, and the ability to make informed 
        decisions in near-real time.
        <bullet> Develop bilateral and regional-level capacity to 
        counter WMD proliferation through collaborative workshops, 
        training, equipment enhancements, and regionally integrated 
        counterproliferation efforts to include the International 
        Counterproliferation Program, the Nunn-Lugar WMD Proliferation 
        Prevention Program, and various counter-trafficking programs.
        <bullet> Support Department of State Office of Weapons Removal 
        and Abatement efforts to assess, reduce, and secure stockpiles 
        of small arms and light weapons (SALW) worldwide. These efforts 
        help foreign governments ensure that manportable air defense 
        systems, other SALW, and related ordnance are properly secured 
        and managed and that excess stockpiles are destroyed. DTRA 
        performs assessments, provides technical advice, and presents 
        best practices through training seminars. Although these 
        weapons and munitions are not WMD, DTRA's on-site weapons 
        inspection and accountability expertise has been applied to 
        reduce the proliferation risks and advice countries on how to 
        avoid accidental explosions in their munitions depots.
        <bullet> In concert with the Department of State, develop and 
        execute a ``whole-of-government'' supported program to build 
        consequence management capacity with international partners.
Goal 2--Provide Counter WMD Capabilities to Meet Current Threats and 
        Challenges
    DTRA enables warfighters and allies to counter WMD threats swiftly, 
effectively, and as far from our borders as possible. 
Counterproliferation and consequence management activities account for 
the largest part of this second goal. Related objectives include:

        <bullet> Expansion of near-real time technical ``reach back'' 
        support to meet the increased number and sophistication of WMD 
        related requests from a growing list of customers including 
        OSD, the combatant commanders, and the WMD-CSTs.
        <bullet> Priority attention on the safety, security, and 
        accounting of the Nation's nuclear weapons under DOD's 
        responsibility.
        <bullet> Expanded development of WMD active and passive 
        detection technologies and accelerated integration into 
        operational concepts to measurably increase standoff detection 
        capabilities and improve means for interdicting WMD on the 
        move.
        <bullet> Improved non-nuclear means of defeating underground 
        facilities, particularly those associated with WMD. We have 
        particularly close partnerships with the Services, SOCOM, and 
        the Intelligence Community in this area.
        <bullet> Accelerated development and transition of nuclear 
        forensics and weapons effects capabilities that will increase 
        the understanding of tomorrow's WMD threat environment and 
        ensure the survivability and operability of systems and key 
        infrastructure following WMD attacks.
        <bullet> Enhanced combatant commanders' capability to eliminate 
        and respond to WMD threats and vulnerabilities, including the 
        improvement of the combatant commanders' ability to plan and 
        execute CWMD responsibilities.
        <bullet> Improved WMD technical analysis efforts with 
        particular emphasis on modeling, simulation, wargaming, and 
        tool development across the WMD spectrum.
        <bullet> Better integrated intelligence data and WMD technical 
        expertise to provide improved understanding of the 
        characteristics, risks, and vulnerabilities of WMD threats.
        <bullet> Develop a collaborative approach to CWMD education and 
        training better focused on the needs of the combatant 
        commanders, the Military Services, and our interagency 
        partners.
        <bullet> Improved capabilities to defeat WMD agents with 
        minimal collateral damage.
        <bullet> Accelerated development and transition of technologies 
        to improve the protection of the warfighters through passive 
        means and decontamination.
        <bullet> In cooperation with the CBDP, develop medical 
        technologies to protect the warfighter and the populace from 
        emerging and genetically engineered biological threats by 
        linking the identification of pathogens to the development of 
        medical countermeasures and placing higher priority on vaccine 
        development and production to counter disease pandemics.
Goal 3--Institutionalize a ``whole-of-DTRA'' approach to enhance the 
        agency's mission performance
    The third goal calls for the improvement and integration of 
strategic planning, management, and business processes; improved 
information technology infrastructure and knowledge management; and the 
development of increased intellectual capital to meet the future WMD 
threats and provide the required CWMD expertise.
                    fiscal year 2012 budget request
    I would like to thank the subcommittee for fully authorizing DTRA's 
fiscal year 2011 budget request. I request your support for our fiscal 
year 2012 budget request of $1.487 billion as follows: $432.133 million 
in Operations and Maintenance, Defense-wide funding; $13.006 million in 
Procurement, Defense-wide; $533.652 million in Research, Development, 
Test and Evaluation, Defense-wide funding; and $508.219 million for 
Nunn-Lugar CTR Program. I also urge your support for the request for 
the DOD Chemical and Biological Defense Program Science and Technology 
(CBDP S&T) program, which DTRA executes. These budget requests include 
efficiencies implemented as part of developing the President's budget 
submission. Highlights of the DTRA fiscal year 2012 budget request 
follow.
                   operations and maintenance funding
    Most DTRA Operations and Maintenance (O&M) funding directly 
supports the warfighters and national missions. The requested $432.133 
million would be applied as follows:

        <bullet> $71.731 million for Nonproliferation Activities 
        including the New Strategic Arms Reduction Treaty, Conventional 
        Armed Forces in Europe, Chemical Weapons Convention, and Open 
        Skies missions; Defense Treaty Inspection Readiness Program; 
        International Counterproliferation Program; and Secretary of 
        Defense Support.
        <bullet> $147.113 million for WMD Combat Support and Operations 
        including combat support to the Joint Chiefs of Staff, 
        combatant commands, and Services; operational and analytical 
        support for nuclear weapons and WMD matters; direct technical 
        support to the combatant commands for planning, exercises, and 
        real-world operations; deployable subject matter expertise; 
        targeting support and combat assessments; Balanced 
        Survivability Assessments that provide mission survivability 
        evaluations; Joint Staff Integrated Vulnerability Assessments 
        to improve force protection at home and abroad; support to the 
        Global Initiative to Combat Nuclear Terrorism; and support to 
        Combatant Command Theater Security Cooperation planning and 
        activities.
        <bullet> $25.253 million for DTRA's support to the SCC-WMD 
        including development and maintenance of a WMD common operating 
        picture; synchronization of CWMD planning across DOD and with 
        interagency partners to include the Global Synchronization 
        Conference; access and continuity to national WMD expertise; 
        DTRA Operations Center; and 24/7 technical reach back.
        <bullet> $10.093 million for the Defense Threat Reduction 
        University that provides unique training for students from all 
        levels of DOD, Federal and state agencies, and allied countries 
        in nuclear weapons; nuclear and radiological incident command, 
        control, and response; counterproliferation with emphasis on 
        operational support; and maintenance of the DOD source of 
        information and analysis of CWMD and nuclear knowledge.
        <bullet> $177.943 million for Core Mission Sustainment that 
        provides for all agency mission essential functions including 
        resource management, security and asset protection, information 
        and knowledge management, and acquisition and logistics 
        management. Special care was taken in preparing this request to 
        ensure that much-needed information technology and knowledge 
        management upgrades essential to DTRA's global mission 
        execution were funded to the fullest extent possible.
           research, development, test and evaluation funding
    DTRA research and development programs respond to the most pressing 
CWMD challenges including stand-off nuclear detection; modeling and 
simulation; support to Special Operations Forces; WMD intelligence, 
surveillance, and reconnaissance; support to the Intelligence 
Community; hard target defeat; and system survivability against WMD 
effects.
    The requested $533.652 million would be applied as follows:

        <bullet> $47.737 million for Basic Research to discover and 
        develop CWMD-related fundamental knowledge and understanding by 
        DOD and other U.S. Government laboratories, industry, and 
        academia--to include partnerships with foreign universities. 
        This program manages over 200 active basic research awards on a 
        3- to 5-year cycle. Since 2007, DTRA has made 205 basic 
        research awards worth $97.2 million in 36 States, thereby 
        funding the CWMD-related research projects performed by more 
        than 500 students and 100 post-doctoral researchers and 
        resulting in more than 500 publications and 25 patents.
        <bullet> $196.954 million for WMD Defeat Technologies Applied 
        Research including systems engineering and innovation; counter-
        terrorism technologies; detection technology; advanced 
        energetics and CWMD weapons; nuclear survivability; nuclear and 
        radiological effects; WMD battle management; test 
        infrastructure; and CWMD fundamental research.
        <bullet> $283.073 million for Counterproliferation Initiatives 
        Advanced Technologies Development including systems engineering 
        and innovation; counter-terrorism technologies; detection 
        technology; advanced energetics and CWMD weapons; nuclear 
        survivability; WMD battle management; and target assessment 
        technologies.
        <bullet> $5.888 million for WMD Defeat Capabilities Development 
        and Demonstration on nuclear and radiological effects.
                        cbdp s&t budget request
    Defending the homeland and improving CBRN defense capabilities are 
top national and DOD priorities because it is not possible in a 
practical sense to distinguish between public health and warfighter 
protection. The CBDP is a key part of a comprehensive, national 
strategy to prevent, protect, and respond to emerging 21st century 
threats posed by an ever-evolving spectrum of chemical and biological 
threats. Directed by the National Strategy for Countering Biological 
Threats, the White House Initiative on Reinventing the Medical 
Countermeasures Enterprise, the 2010 Quadrennial Defense Review, and 
the Defense Planning and Program Guidance, the CBDP supports 
comprehensive DOD efforts to: research, develop, and acquire 
capabilities for a layered, integrated defense against CBRN agents; 
better understand potential threats; secure and reduce dangerous 
materials whenever possible; and prevent potential attacks. Although 
the funding for the CBDP is not part of the DTRA budget request, the 
agency does execute the S&T portion of this program, for which the 
department has requested $504.747 million in fiscal year 2012.
    This S&T funding provides for technology development to advance 
CBRN detection, decontamination, medical treatments and diagnostics, 
battle analysis and management, modeling and simulation, integrated 
early warning and medical surveillance, individual and collective 
protection, and medical prophylaxes. I will highlight four significant 
programs and initiatives:

        <bullet> The Medical Countermeasures Initiative (MCMI) will 
        address unique operational medical countermeasures (MCM) 
        requirements; establish a Public-Private Partnership for 
        advanced development of MCM candidates to achieve Food and Drug 
        Administration (FDA) licensure, priority manufacture of FDA-
        licensed products, and surge production capacity to respond to 
        a national emergency. This program is vital to staying ahead of 
        WMD threats and I urge your strong support for it.
        <bullet> The Transformational Medical Technologies (TMT) 
        Program represents a paradigm shift for biodefense through the 
        rapid identification of known and unknown pathogens and the 
        corresponding rapid discovery of effective countermeasures. The 
        TMT has demonstrated an ``end-to-end'' capability to respond to 
        emerging infectious diseases and genetically engineered 
        threats. This highly successful effort has demonstrated 
        abilities to: perform threat identification, characterization, 
        and evaluation within 24 hours; manufacture and test materials 
        in 72 hours; and initiate animal efficacy testing within 2 
        weeks, to be completed within 1 year.
        <bullet> Since time is the key critical factor in responding to 
        biological threats, enhancing global biosurveillance 
        capabilities is a priority for DOD. Biosurveillance activities 
        performed by the department include research, development, and 
        acquisition of medical diagnostics, data fusion and management, 
        and environmental biodetection capabilities. DOD 
        biosurveillance activities are enhanced by establishing 
        strategic partnerships and scientific cooperative efforts with 
        partner Federal departments and agencies as well as nations 
        across the globe.
        <bullet> Nontraditional Agents (NTAs) are chemicals and 
        biochemicals reportedly researched or developed with potential 
        application or intent as chemical warfare agents, but which do 
        not fall in the category of traditional chemical warfare agents 
        or Toxic Industrial Chemicals/Materials. NTAs pose unique risks 
        and challenges for our chemical defense capabilities and the 
        NTA Countering Advanced Threats initiative addresses emerging 
        and future capabilities.

    It is important to emphasize that DOD CBDP programs are conducted 
in partnership with, and leverage the expertise and capabilities of, 
departments and agencies across the U.S. Government.
                          procurement funding
    The DTRA Procurement, Defense-wide request replaces mission 
essential vehicles and equipment and procures new investment items 
required to perform agency missions. The fiscal year 2012 request is 
for $13.006 million, $0.949 million higher than the fiscal year 2011 
estimate. As with the DTRA O&M account, special care was taken in 
preparing this request to ensure that critically essential information 
technology and knowledge management upgrades essential to DTRA's global 
mission execution were funded to the fullest extent possible.
            nunn-lugar cooperative threat reduction funding
    The Nunn-Lugar program's overarching mission is to partner with 
willing countries to reduce the threat of WMD and related materials, 
technologies, and expertise. This program has expanded its activities 
beyond the FSU as authorized in the National Defense Authorization Act 
for Fiscal Year 2008. For fiscal year 2012, the Nunn-Lugar program has 
been restructured to clearly link efforts to established national 
security strategies, gain efficiencies among related project efforts, 
and enable and promote the expansion of the program beyond the FSU.
    The $508.219 million, a 3-year appropriation, requested for this 
program in fiscal year 2012 would be applied for 3 years as follows:

        <bullet> $63.221 million for Strategic Offensive Arms 
        Elimination in Russia to include 20 SS-19 Intercontinental 
        Ballistic Missiles (ICBMs), 11 SS-19 silos and launch control 
        centers, 36 SS-25 ICBMs, 27 SS-25 road-mobile launchers, and 20 
        SS-N-18 Submarine-launched Ballistic Missiles (SLBMs). This 
        request is a $10.311 million less than the fiscal year 2011 
        estimate. In addition the funding would decommission one SS-25 
        ICBM regiment; complete the dismantlement of nuclear reactor 
        cores and launcher sections of 1 DELTA III Ballistic Missile 
        Submarine (SSBN) and eliminate 16 SLBM launchers; and complete 
        the dismantlement of the nuclear reactor cores and launcher 
        sections of one Typhoon SSBN and eliminate 20 SLBM launchers.
        <bullet> $9.804 million for Chemical Weapons Destruction 
        technical support to the Chemical Weapons Destruction Facility 
        at Shchuch'ye, Russia. This is $6.204 million more than the 
        fiscal year 2011 estimate. To date, this effort has resulted in 
        the destruction of 1,680.4 metric tons of declared chemical 
        weapon agents.
        <bullet> $121.143 million for Global Nuclear Security. This is 
        $43.136 million less than the fiscal year 2011 estimate. This 
        program area renames and consolidates all activities related to 
        nuclear warhead and weapons-grade nuclear material security 
        within selected countries. These efforts provide enhanced 
        physical security, including associated inventory management 
        and security training support, for strategic and non-strategic 
        (tactical) nuclear weapons and fissile materials. The program 
        also improves security for nuclear material that meets specific 
        criteria for enrichment and quantity and is judged to be 
        vulnerable. In addition, it assists in the secure transport of 
        nuclear warheads and other qualifying material to dismantlement 
        facilities, consolidated secure storage areas, or processing 
        facilities for disposition. This program also assists with the 
        establishment of Centers of Excellence with partner countries 
        to enhance training capabilities for nuclear security, material 
        control, and inventory management that is consistent with best 
        international practices, and installs additional security 
        measures in Kazakhstan.
        <bullet> $259.470 million for Cooperative Biological 
        Engagement. This is $50.436 million more than the fiscal year 
        2011 estimate. This program was formerly titled Biological 
        Threat Reduction. The CBE program counters the threat posed by 
        pathogens (as delineated in the U.S. Select Agent List); 
        related materials and expertise; and other emerging infectious 
        disease risks. It helps prevent these pathogens from reaching 
        any foreign state or non-state actors who may use them against 
        the United States and its allies. The CBE program focuses on 
        delivering tailored approaches that recognize and build upon 
        partner countries' indigenous capacities. The CBE program 
        builds capacity and advocates best practices for the safe and 
        secure handling of extremely dangerous pathogens. It supports 
        transparent responsible research to understand indigenous 
        dangerous pathogens in partnership with the whole of U.S. 
        Government and international partners. These collaborative 
        partnerships enhance global capacity to detect, diagnose, and 
        mitigate biological risks of concern. These partnerships also 
        facilitate an ability to initiate timely and effective disease 
        control measures to contain trans-border global disease 
        threats. The program is engaged with Ukraine, Georgia, 
        Azerbaijan, Armenia, Kazakhstan, Russia, Pakistan, Afghanistan, 
        Kenya, and Uganda. In fiscal year 2012, it will partner with 
        Iraq, Tanzania, Djibouti, South Africa, and India.
        <bullet> $28.080 million for Proliferation Prevention by 
        building partner capacity in Armenia and Moldova, in 
        collaboration with counterproliferation capacity building 
        programs across the U.S. Government, and expanding ongoing 
        efforts within the FSU, to include additional land border 
        assistance and bolstered regional training capacities in 
        Ukraine; land border assistance in Armenia; and possible land 
        border training and equipment assistance in Moldova. This is 
        $1.919 million more than the fiscal year 2011 estimate. 
        Additionally, it is envisioned that this will support project 
        assessments for future land border and maritime efforts that 
        enhance CWMD command, control, communications, surveillance, 
        and detection and interdiction capabilities.
        <bullet> $2.5 million for Threat Reduction Engagement 
        opportunities in new geographical areas. This is $2.500 million 
        less than the fiscal year 2011 estimate.
        <bullet> $24.001 million for Other Assessments/Administrative 
        Support including audits and examinations of provided 
        assistance, contractor advisory and assistance services, and 
        U.S. Embassy support in partner countries. This is $0.961 
        million more than the fiscal year 2011 estimate.
                               conclusion
    Madam Chairman, Senator Portman, and members of the subcommittee, 
the DTRA/SCC-WMD team has an impressive record of reducing, deterring, 
defeating and countering WMD threats. We have strong partnerships with 
the combatant commanders, the Joint Staff, across the U.S. Government, 
and with allies and friends overseas. DTRA has made and continues to 
make the world safer--whether we are performing on-site inspections as 
part of the U.S. arms control treaty obligations; overseeing the 
destruction of FSU WMD weaponry; conducting imaginative and 
unprecedented threat reduction activities; developing new capabilities 
for defeating WMD in place or on the move; protecting people, systems, 
and infrastructure; improving CWMD planning; enabling CWMD operations; 
and supporting the U.S nuclear deterrent.
    In the years ahead we will be expanding cooperative threat 
reduction and engagement on a worldwide scale with new partners. We 
will enable the warfighters and our allies to more effectively and 
efficiently counter WMD threats by providing the intellectual, 
technical, and operational expertise that will permit far more 
effective decision making and mission execution.
    I hope that we continue to earn your trust and support. I would be 
pleased to respond to your questions.

    Senator Hagan. Thank you.
    Mr. Handelman.

 STATEMENT OF KENNETH B. HANDELMAN, ACTING ASSISTANT SECRETARY 
     FOR GLOBAL STRATEGIC AFFAIRS, DEPARTMENT OF DEFENSE; 
   ACCOMPANIED BY JED ROYAL, DIRECTOR, OFFICE OF COOPERATIVE 
         THREAT REDUCTION POLICY, DEPARTMENT OF DEFENSE

    Mr. Handelman. Madam Chairman, Senator Portman: It's an 
honor to testify today on DOD's nonproliferation activities and 
on our efforts more broadly to counter the threat of WMDs. It's 
a personal pleasure to be joined by Mr. Jed Royal, who is 
sitting behind me to my left, who is the Director of the Office 
of Cooperative Threat Reduction Policy. It's Jed and his team, 
working with Ken Myers and his team, who actually make things 
really happen in the Nunn-Lugar cooperative threat reduction 
program.
    I'd like to focus my opening remarks on an area that has 
attracted significant attention and indeed to which you 
referred, Madam Chairman, in your opening remarks. That is 
DOD's work in biodefense. Now let me be clear about the 
administration's WMD priorities overall. The President has said 
that the greatest threat to the United States is a nuclear 
weapon in the hands of a terrorist. However, the President has 
also given a similar high priority to biodefense. The December 
2009 national strategy for countering biological threats 
highlighted the significant threat to our people, our coalition 
partners, and our forces posed by especially dangerous 
pathogens.
    Sometimes it is not so obvious why DOD should care so much 
about biodefense issues. Let me briefly highlight why we care 
and very much. First, biodefense is not merely about the health 
of U.S. troops and their families. It's about the ability of 
U.S. troops to fight and win in an environment that might be 
compromised by diseases against which we have no protection or 
treatment.
    Second, even if U.S. forces are prepared to fight in such 
an environment, our doctrine and our force structure require 
that we fight alongside coalition partners. If our partners are 
vulnerable to biothreats, then we can count them out of the 
fight right from the start.
    Third, biodefense is an area where we can use modest 
investments prior to a conflict to maximize our capabilities 
during a conflict. Here are some of the things that we are 
already doing in this area. To limit proliferation of 
especially dangerous pathogens, we're working with partner 
countries in areas where dangerous diseases are endemic to 
improve laboratory physical security and security practices.
    To improve our understanding of dangerous diseases that can 
impact our troops, we're expanding cooperative research 
projects with partner countries and leveraging the U.S. 
military's overseas lab network. To improve our early warning 
posture, we're pursuing a disease surveillance capability that 
will give us a heads-up about the origin and potency of 
outbreaks that could spread in our forces or our population.
    These are just a few examples of how DOD is trying to get 
ahead of what we believe is an underaddressed security 
challenge. I want to emphasize how closely we coordinate with 
our colleagues in the public health business without getting 
into their business. We have been careful to maintain our focus 
on national security and to avoid overlap with the efforts of 
established U.S. public health outreach overseas. But it is 
very important that DOD engage aggressively in this global 
biodefense effort. DOD and State are the only U.S. agencies 
with authority to develop biodefense relationships with 
partners around the globe in support of U.S. national security, 
and DOD has a special equity, given how frequently and far 
afield we deploy our military members.
    Our work in this area is still in its infancy. We have a 
great partnership with other U.S. agencies and we are learning 
important lessons. I want to leave you with two of those 
lessons as I wrap up.
    First, we've learned that, as with other WMD, threats to 
the health of our forces are best addressed at the source, in 
regions where dangerous diseases originate.
    Second, we've learned that, even as we carefully deconflict 
our biodefense work with activities of our public health 
colleagues, there really is no way to draw a bright line 
distinction between public health and national security.
    Madam Chairman, Senator Portman, I wanted to use my opening 
remarks to focus on DOD's biodefense activities because this is 
a conversation that we need to expand with the committee. As 
biological science becomes more accessible and borders less 
secure, we believe that the bio threat will only increase, and 
DOD's biodefense activities will increase as well.
    I look forward to your questions.
    [The prepared statement of Mr. Handelman follows:]
               Prepared Statement by Kenneth B. Handelman
    Madam Chairman, Ranking Member Portman, members of the 
subcommittee, it is an honor to appear before you to discuss the 
Department of Defense's (DOD) countering weapons of mass destruction 
(CWMD) efforts. The Department is building on its legacy of 
counterproliferation and threat reduction work while adjusting 
activities to meet new proliferation challenges and emerging threats. I 
welcome the opportunity to discuss these developments with you today.
    It is a special honor to appear with two colleagues with whom I 
work very closely: the Director of the Defense Threat Reduction Agency 
(DTRA), Ken Myers, and the National Nuclear Security Administration's 
(NNSA) Deputy Administrator for Defense Nuclear Nonproliferation, Ms. 
Anne Harrington.
    DTRA and the office I oversee--OSD-Policy's Global Strategic 
Affairs organization--serve complementary roles in the development, 
execution, and oversight of the Department's CWMD mission. In general 
terms, my office develops strategy and policy guidance, manages 
interagency and international relationships, and sets Department CWMD 
priorities. DTRA is the entity responsible for implementing the CWMD 
strategic guidance which my office has developed. DTRA accomplishes 
this mission with acquisition oversight of the Assistant Secretary for 
Nuclear, Chemical and Biological programs. As a practical matter, all 
of these DOD components execute responsibilities at all levels in close 
coordination with each other, and with combatant commanders, especially 
U.S. Strategic Command.
    Our missions are executed with essential support from the 
Department of State, and in cooperation with Ms. Harrington and her 
team at NNSA. I do not claim complete success in all we do, but it is 
not an exaggeration to say that the U.S. Government's CWMD 
``community'' is a successfully integrated interagency team.
                 global environment and dod's strategy
    The threat posed by proliferation of weapons of mass destruction 
(WMD) remains complex. The intent of states and non-state actors to 
acquire WMD, combined with the availability of sensitive materials and 
increased access to scientific expertise make WMD more accessible than 
ever to potential adversaries.
    President Obama made clear in his April 2009 speech in Prague that 
overcoming the threat posed by WMD--especially the nexus between WMD 
and terrorism--requires a comprehensive approach. This is reflected in 
the broad strategic framework that guides our efforts.

        <bullet> The 2009 National Strategy for Countering Biological 
        Threats, a comprehensive approach to prevent or respond to the 
        proliferation and use of biological weapons by states or non-
        state actors. A key part of this strategy is a broad effort to 
        increase capability worldwide to conduct effective and timely 
        disease surveillance and to improve capacity to counter both 
        naturally occurring and deliberately-caused disease outbreaks 
        through the application of targeted and proven tools for 
        biological risk management.
        <bullet> The 2010 National Security Strategy, which outlines a 
        comprehensive nonproliferation and security agenda, including 
        reducing the U.S. nuclear arsenal and reliance on nuclear 
        weapons, promoting regional stability, and ensuring the 
        effectiveness of our deterrent and defensive capabilities.
        <bullet> The 2010 Quadrennial Defense Review, which devotes 
        more attention to this challenge than any prior defense review, 
        establishes ``Preventing Proliferation and Countering WMD'' and 
        ``Defending the United States and Supporting Civil Authorities 
        at Home'' among the Department's top six priority mission 
        areas.
        <bullet> The 2010 Nuclear Posture Review, which seeks to better 
        align our nuclear policies and posture to our most urgent 
        priorities--preventing nuclear terrorism and proliferation 
        while ensuring the maintenance of a safe, secure, and effective 
        nuclear deterrent for as long as nuclear weapons exist.

    In support of these efforts, DOD is aligning its CWMD programs to 
become more flexible and responsive. Here our approach is three-fold: 
First, we are supporting the administration's broader effort to 
reinvigorate multilateral nonproliferation initiatives and treaties. 
Second, we seek to secure or eliminate WMD threats at their source and 
in transit. Third, we seek to enhance our ability to detect and respond 
to emerging threats, and to ensure our troops, along with coalition 
partners, can fight and win in an environment contaminated by chemical, 
biological, radiological or other hazards. These three lines of effort 
can be summed up as touchstones: leadership, partnership, and 
innovation.
               strengthening the nonproliferation regimes
    This area of effort is about enhancing U.S. leadership in global 
non-proliferation forums.
    For years we have worked with our allies and partners to develop a 
nonproliferation infrastructure that can reduce our collective 
vulnerability to these weapons. The current network of initiatives, 
regimes, and treaties offers important tools for advancing this 
critical agenda. The administration's efforts to strengthen the global 
non-proliferation regime through the Nonproliferation Treaty (NPT), 
Comprehensive Test Ban Treaty (CTBT), and Fissile Material Cutoff 
Treaty (FMCT) are instrumental to raising barriers to WMD 
proliferation. In this area we are not naive: the worst actual or 
potential proliferators won't meet non-proliferation obligations under 
any circumstance. However, a number of nations face choices about their 
role in the world's WMD nonproliferation ``conversation''; with strong 
U.S. leadership we can convince them from staying on the sidelines, or 
worse, from becoming proliferators themselves.
    We are actively working to strengthen the NPT--the cornerstone of 
the nuclear nonproliferation regime. The May 2010 NPT Review Conference 
reaffirmed parties' commitment to the Treaty and significantly achieved 
consensus on an Action Plan for future progress. This Action Plan 
endorsed a balanced approach to advance the three pillars of the 
regime: nonproliferation, peaceful uses of nuclear energy, and nuclear 
disarmament. DOD will continue to actively participate with State and 
our interagency colleagues in international activities to implement 
this Plan. The United States' ``negative security assurance'' set forth 
in DOD's 2010 Report of the Nuclear Posture Review is clear: ``The 
United States will not use or threaten to use nuclear weapons against 
non-nuclear weapons states that are party to the Nuclear NPT and in 
compliance with their nuclear non-proliferation obligations.'' This 
assurance underscores the security benefits of adhering to, and 
complying fully with, the NPT.
    In addition, the administration is committed to ratification of the 
CTBT. The CTBT would limit countries without nuclear weapons from 
confidently deploying such weapons; it would hinder existing nuclear 
powers from developing new types of warheads. As a sign of our 
commitment to the CTBT regime, we will continue to maintain our 
unilateral moratorium on nuclear weapons testing, and will remain fully 
engaged in development of the Treaty's verification regime. At the same 
time, we remain committed to maintaining a safe, secure, and effective 
nuclear deterrent for our security and that of our allies.
    We also seek a FMCT that would ban production of fissile material 
for use in nuclear weapons. DOD continues to support discussions among 
technical experts in the U.N. Conference on Disarmament. These 
discussions are not a substitute for actual negotiations, but hopefully 
they will foster greater appreciation of key technical issues.
    Further, we are engaged actively in efforts to ensure that the 
upcoming Biological and Toxin Weapons Convention Review Conference 
strengthens the global norm against possession and use of biological 
weapons. We hope to expand membership in the Convention and strengthen 
its implementation to meet the bioweapons challenges of the 21st 
century. As part of this effort, DOD has taken steps to increase the 
transparency of our biological defense activities; the United States is 
encouraging other treaty parties to do the same.
    Finally, the administration recognizes the importance of 
multilateral activities and mechanisms that help to prevent 
proliferation, such as the Proliferation Security Initiative (PSI). 
Since its creation in 2003, nearly one hundred countries have endorsed 
the PSI Statement of Interdiction Principles, which commits signatories 
to take action individually and cooperatively, as necessary to 
interdict WMD related materials in transit to states of proliferation 
concern. The PSI also continues to help build states' individual and 
collective ability to fulfill this commitment, using military 
exercises, table top workshops and ship-boarding training. This year we 
are focusing our efforts to promote key interdiction capabilities, 
identify resources to support these capabilities, and design strategies 
to proactively engage nations in the capacity-building process.
    Last year the U.N. Security Council imposed the toughest sanctions 
to date against Iran. As with the case of North Korea, the Security 
Council called on states to inspect suspicious cargo bound from or to 
Iran at airports, seaports, and on the high seas. This illustrated the 
utility of PSI and related activities to non-proliferation success. 
U.N. members are now obligated to block North Korean and Iranian 
transfers of WMD and related cargoes, to include missile parts, 
explosives, and other nuclear-related technology. Exercises and 
training provided under the PSI help increase the international 
community's collective capability to execute these activities.
    United States multilateral non-proliferation leadership was 
punctuated last year by the April 2010 Nuclear Security Summit, 
attended by 47 countries. The momentum and specific non-proliferation 
accomplishments generated by the Summit were impressive, and we are 
supporting the Republic of Korea as it prepares to host the next 
Nuclear Security Summit in spring 2012.
                    reducing and eliminating threats
    This area of effort focuses on our essential partnership with 
governments dealing with legacies of WMD on their territory, or which 
are interested in building the capacity to prevent WMD and related 
materials from crossing their borders illicitly.
    Since its inception in 1992, the Nunn-Lugar Cooperative Threat 
Reduction (CTR) Program has worked with states of the former Soviet 
Union (FSU) to address nuclear, radiological, biological, and chemical 
threats. Since 2005, CTR has evolved to keep pace with the changing 
global security environment, and that evolution has accelerated 
recently. In December 2010, the Secretary of Defense, with the 
concurrence of the Secretary of State, determined that CTR partnerships 
with Iraq, India, China, and the countries of Africa will assist the 
United States in achieving long-standing nonproliferation goals, as 
well as sustaining long-term partnerships that enhance security. The 
Secretary's action adds to his 2009 determination to pursue CTR 
cooperation with Afghanistan and Pakistan. This work beyond CTR's 
``traditional'' area of operations in the FSU reflects opportunities we 
see for expanded partnerships on WMD security issues. Four principles 
guide evolution of CTR as we expand geographically: integration, 
responsiveness, stewardship, and cooperation.
Integration
    In the past, CTR was often the lead U.S. interlocutor with a 
foreign government on a particular project. In the future, CTR needs to 
build on work that other U.S. and international agencies have 
accomplished, taking care to leverage others' success without 
reinventing-the-wheel. This is especially true in CTR's expanding bio-
engagement.
Responsiveness
    CTR has typically taken a very methodical approach to its 
activities. Should the need arise, we are revising procedures to in 
order that we can be agile enough to accept targets of opportunity and 
flexible enough to utilize CTR in new regions and for new projects.
Stewardship
    We are working closely with DTRA to ensure that partner countries 
can join effectively in sustaining the capacity that many new CTR 
projects are intended to create.
Cooperation
    CTR is about protecting U.S. interests. However, we increase our 
risks when our solutions are devised with an inside-the-Beltway 
perspective. We can better leverage partners' local creativity to meet 
common goals.
    Having just described the principles governing CTR's geographic 
expansion, it is worth highlighting two other points of principle. 
First, we are expanding the program beyond its traditional area of 
activity because we believe that a threat persists which CTR can help 
address. CTR has built important interagency relationships and global 
experience working in remote locations; this is a valuable asset we are 
redeploying in relevant, modernized ways in pursuit of U.S. interests. 
Second, our geographic expansion of CTR does not necessarily imply 
significantly increased costs. We appreciate Congress's support last 
year for a substantial increase in CTR's budget. We believe that step 
addressed a prior mismatch between CTR's missions and resources. 
However, at this time we believe the fiscal year 2012 budget request 
and the program's future years projected baseline is well-balanced 
against likely demands. DOD will do its part in the national deficit 
reduction effort, and we are prepared to make hard choices in the CTR 
program should they be necessary.
    The President has requested $508.2 million for CTR in fiscal year 
2012. This figure supports a variety of counter-WMD efforts described 
in my testimony, within the context of Secretary Gates' imperative to 
maximize efficiencies in the Department. DTRA and the NNSA have also 
presented balanced requests, well-synchronized across the CWMD 
community. I urge the committee's support for these requests; I'd like 
to highlight a few of the activities these funds will support.
    CTR's strategic nuclear systems elimination work in the FSU has 
largely been concluded; however, work continues in Russia as ballistic 
missiles, launchers, and ballistic missile submarines are being 
dismantled in verifiable fashion. With the entry into force of the New 
START Treaty, we anticipate that the Russian Federation will request 
continued CTR assistance to ensure strategic systems are properly 
disposed of with no residual proliferation-sensitive components 
remaining.
    CTR also assists Russia with safe, secure, and environmentally 
sound destruction of a portion of its nerve agent stockpile that is 
most vulnerable to theft or diversion. Russia is responsible for 
meeting its commitments under the Chemical Weapons Convention; CTR's 
involvement focuses only on the most dangerous, most proliferable 
portion of the former Soviet stockpile and related infrastructure. Our 
current chemical weapons-related work in Russia involved primarily 
technical assistance: we are ensuring proper maintenance at the 
Shchuch'ye Chemical Weapons Destruction Facility constructed by CTR, 
which began eliminating chemical weapons in March 2009. This protects 
our investment, as well as the contributions of other donor countries.
    Through CTR's work in Russia, DOD is contributing to the ``site-
level'' approach of the interagency strategy for the President's global 
nuclear lockdown agenda, described by my DOE colleague. CTR continues 
to assist Russia with transport of nuclear warheads from operational 
locations to dismantlement facilities or more secure, consolidated 
storage sites. We are also assisting Russia with secure transport of 
spent naval fuel that is both enriched and vulnerable to a degree that 
gives rise to proliferation concern. CTR's successful partnership with 
the Department of Energy and the Russian Federation Ministry of Defense 
to secure warhead storage sites also continues. Although primary 
activity for this effort (the so-called ``Bratislava Initiative'') 
concluded some years ago, CTR is ensuring that Russia can sustain the 
modernized physical protection systems that were installed for the long 
term. This sustainment work is nearing completion, and we are working 
with DOE to transition responsibility for their sustainment to the 
Russian Federation.
    CTR considers each Russian request independently; not all requests 
for support are granted. We continue to believe that engagement with 
Russia through the CTR program supports U.S. nonproliferation and 
strategic interests. Moreover, cooperation with Russia funded through 
CTR has endured as a steady, open channel even when the success of 
other aspects of the U.S.-Russia relationship have been inconsistent.
    We are also leveraging our nuclear security experience in the 
former Soviet Union to support the implementation of the ``country-
level'' and ``global-level'' approaches of the global nuclear lockdown 
strategy. Alongside DOE and other interagency stakeholders, CTR is 
supporting a ``Center of Excellence'' for Nuclear Security in China, 
and will participate with India in the nuclear security component of 
its Global Center for Nuclear Energy Partnership, both announced at the 
April 2010 Nuclear Security Summit. Through these Centers we hope to be 
able to exchange nuclear security best practices, demonstrate 
equipment, and contribute to national and regional training programs. 
DOD is also active in multilateral nuclear security collaborations, 
such as the Global Initiative to Combat Nuclear Terrorism, as well as 
the Nuclear Security Summit process.
    The most dynamic area of CTR activity for the foreseeable future 
will be biodefense. CTR's Cooperative Biological Engagement Program 
(CBEP) (formerly designated Bio-Threat Reduction Program) is pursuing 
four lines of effort. First, CBEP consolidates and secures collections 
of especially dangerous pathogens that might serve as the source for 
biological weapons. Second, CBEP provides laboratory safety 
enhancements and training to prevent accidental release of especially 
dangerous pathogens. Third, CBEP strengthens partner countries' 
detection, diagnostic, and reporting systems with training, technology 
upgrades, and improvements to laboratory detection networks. Finally, 
CBEP promotes collaborative research projects to increase capacity to 
understand and recognize the most dangerous pathogens. Collectively, 
these four areas help address the growing human and animal biodefense 
challenge which we believe has heretofore lacked appropriate resources 
and attention from U.S. agencies with national security missions. CBEP 
activities are synchronized with the National Security Strategy for 
Countering Biological Threats, specifically, its goals of strengthening 
global health security, obtaining timely insight on emerging outbreaks, 
reducing the potential for exploitation of life sciences material and 
technology, and reinforcing norms of safe and responsible conduct.
    The Cooperative Biological Engagement Program (CBEP) continues to 
partner with countries of the FSU and is active in Armenia, Azerbaijan, 
Georgia, Kazakhstan, Russia, and Ukraine. In Georgia, we recently 
opened a new Central Reference Laboratory (CRL) and are in the process 
of helping it become an internationally recognized center for disease 
surveillance and diagnostics. A similar effort is underway in 
Kazakhstan. In Ukraine, the CBEP consolidate Ukraine's human especially 
dangerous pathogens at an upgraded, secure facility, with an eye toward 
taking similar action for Ukraine's animal especially dangerous 
pathogens.
    Earlier, I mentioned Secretary Gates' approval of CTR expansion to 
Africa for biodefense work; and I'd like to say a bit more about why 
DOD views Africa as a priority for this kind of engagement. Africa is a 
continent that is rich in indigenous, naturally-occurring especially 
dangerous pathogens, which local scientists and health professionals 
must work with on a routine basis. Limited funding for training, 
infrastructure and other needs means that this work is all too often 
performed with less than ideal safety and security standards in place. 
Security of borders is also a challenge in many parts of Africa. These 
factors make Africa a tempting destination for both state and non-state 
organizations that seek biological weapons.
    The United States and its allies have had a longstanding public-
health presence in Africa, a base of experience and familiarity that 
facilitates CTR's activities on the continent. Potential African 
partner governments are both enthusiastic and creative about the 
opportunities for Nunn-Lugar CTR program activities, and we are working 
with them to pursue a regional approach for our cooperative engagement 
program that would have a lasting impact beyond traditional bilateral 
relationships. The U.S. military has important relationships in the 
Horn of Africa and elsewhere, so we view our activities as directly 
supporting U.S. troops' security, in addition to furthering larger non-
proliferation goals. Our work has been aided greatly by the support of 
State Department colleagues and country teams as CTR managers build 
relationships in the program's first major expansion outside the FSU.
    While securing WMD materials at their sources is an important 
component of the CTR program, our strategy requires a layered defense 
against WMD proliferation threats. CTR's WMD Proliferation Prevention 
Program (PPP) can enhance partners' ability to detect and interdict WMD 
``on the move'' through provision of detection, surveillance, and 
interdiction capabilities. DTRA's International Counterproliferation 
Program (ICP) complements the capital-intensive investments of the WMD-
PPP program through its modest ``train and equip'' efforts. ICP is 
unique in its legislative authority to partner explicitly with the 
Federal Bureau of Investigation (FBI) and U.S. Customs and Border 
Protection (CBP) in furtherance of deterring the proliferation of WMD 
across the FSU, the Baltic States, and in Eastern Europe. We are 
currently working to determine how best to expand both border security 
programs to new partners.
              detecting and responding to emerging threats
    This area of activity will depend for success on innovation in 
technology, intelligence, and planning; innovation which we will need 
to foster. Our attention in this regard has focused on re-looking the 
Nation's defenses against the threat of loose nuclear material, plus 
consideration of new defenses against emerging biological threats.
    As President Obama said in his April 2009 Prague speech, ``the 
threat of global nuclear war has gone down, but the risk of a nuclear 
attack has gone up. More nations have acquired these weapons. . . . 
Black market trade in nuclear secrets and nuclear materials abound. 
Terrorists are determined to buy, build or steal'' a nuclear weapon. 
The President's charge to executive agencies was to look again at what 
heretofore had been viewed as a reliable whole-of-U.S. Government 
response should we suspect a terrorist organization has obtained one or 
more nuclear devices. Faced with such a threat, we will potentially 
need a globally-synchronized response to detect, interdict, and contain 
the effects of nuclear weapons. This could include activities such as 
securing material at the source, intercepting material on the move, and 
increasing defenses to protect against an attack on the homeland.
    The threat of nuclear terrorism is also closely intertwined with 
state challenges. For instance, the instability or collapse of a 
nuclear-armed state could quickly lead to proliferation of nuclear 
weapons or materials well beyond the country of origin and involve 
multiple state and non-state actors as it moves. Our plans for these 
potential challenges need to be revised to reflect the ever-increasing 
velocity of information, new challenges and capabilities in 
intelligence collection, and enduring technical hurdles related to 
nuclear detection and forensics.
    Within DOD, we seek to synchronize a layered defense against these 
threats that includes enhanced protective posture of the homeland; 
better identification of likely proliferation pathways; and, new 
abilities to detect and characterize sources and properties threats. We 
can be certain that in a nuclear or other WMD crisis, all these 
activities would be occurring simultaneously, under withering media 
scrutiny. Our focus in DOD is to improve capacity among top leaders, 
the combatant commanders, and the providers of key expertise to 
coordinate efforts as a potential threat is tracked from remote parts 
of the globe.
    The emerging biodefense threat lacks the signature characteristics 
of a ``loose nuke,'' but is no less dangerous.
    An important priority of the President's National Strategy for 
Countering Biological Threats is increasing capability to conduct 
effective and timely disease surveillance worldwide. This will improve 
our capacity to respond successfully to both naturally occurring and 
deliberate disease outbreaks. A 2009 report by the National Research 
Council noted that countries which lack the public health 
infrastructure necessary to detect, diagnose, and report naturally 
occurring disease outbreaks are substantially less able to effectively 
deal with a bio-terror attack. I spoke earlier of efforts of the CTR 
program to address the bio-surveillance shortfall. In addition, we have 
worked with the Army and Navy to restructure DOD support for its 
overseas laboratory system beginning in fiscal year 2012. These labs 
are DOD's primary means to discover novel pathogens or characterize 
pathogens that are not generally found in the United States. Within the 
military medical community these labs have long been well-known for 
their intrepid work protecting U.S. military members from disease. The 
innovation we will implement in 2012 is to begin leveraging these 
important facilities for non-proliferation purposes, as an addition to 
their original clinical missions.
    Other innovations reflect an array of concerns about the changing 
WMD threat and how best to prepare our troops and coalition partners to 
confront it:

        <bullet> The revolution in biotechnology and the chemical 
        industry is undermining our confidence in defenses currently 
        protecting our forces. With growing access to expertise, 
        equipment and precursors needed to produce new chemical or 
        biological compounds, we sought more RDT&E funding to develop 
        improved countermeasures, personal protection gear, and 
        research new decontamination techniques to mitigate the effects 
        of novel chemical and biological agents.
        <bullet> We have recognized a need for innovation in our 
        military organizational capacity to counter WMD threats. The 
        2010 QDR called for a new standing Joint Force Headquarters for 
        Elimination which will serve as a permanent, join advocate for 
        training, exercising and refining military tactics, techniques 
        and procedures related to WMD elimination. The Secretary 
        designated U.S. Strategic Command as the lead, and the command 
        is currently completing its mission analysis. The standing 
        headquarters will greatly increase DOD's capability to locate, 
        characterize, secure, disable or destroy hostile WMD 
        capabilities in a non-permissive or semi-permissive 
        environment.
        <bullet> We have also made a down-payment on innovative 
        approaches to building partners' WMD defense capabilities. For 
        fiscal year 2012, the DOD budget request includes a small 
        start-up fund for ``counter-WMD Cooperative Defense 
        Initiatives.'' These funds are dedicated for each Geographic 
        Combatant Command to provide an initial capacity for 
        interoperability among U.S. forces and regional partners, and 
        ensure partner nations can survive an attack, eliminate further 
        threats, and manage the humanitarian consequences of a WMD 
        attack. This initiative is supported strongly by our COCOM 
        counterparts and we look forward to reporting to Congress in 
        future years on its progress.
        <bullet> Finally, at the North Atlantic Treaty Organization 
        (NATO), the new Strategic Concept adopted by Heads of State and 
        Government at the November 2010 Lisbon Summit reaffirmed the 
        Alliance's commitment to further develop NATO's capacity to 
        defend against the threat of chemical, biological, 
        radiological, and nuclear weapons. At the United States' 
        behest, the Strategic Concept directed NATO to assess how it 
        can improve capacity to counter proliferation of WMD and their 
        means of delivery. DOD is working closely with State to assist 
        NATO in this important effort.
                               conclusion
    Congress has provided authorities and resources which allow DOD to 
address the WMD threat to our troops and our people. It is an evolving 
threat that spans traditional counter-proliferation and non-
proliferation responses. Our mission is to ensure that DOD's responses 
stay ahead of the threat in order that our troops and those of our 
coalition partners can fight and win in a WMD environment, and that our 
people are protected from WMD threats. We are committed to working 
closely with our interagency and international partners, and with 
Congress in this endeavor.

    Senator Hagan. Thanks to all three of you.
    What I'd like to do is to now take maybe 6-minute questions 
each, and then we'll have a second round.
    Let me just mention budgets for a quick question. NNSA did 
not receive all of the funding requested in its fiscal year 
2011 budget. What is the programmatic impact of not receiving 
the amount requested? What will not get done, and will not 
having all of the requested funding in fiscal year 2011 have an 
impact on the fiscal year 2012 funding and programs?
    Ms. Harrington.
    Ms. Harrington. Thank you very much for that question. 
Fiscal year 2011 has been a management challenge. I will not 
mince words about that. The successive continuing resolutions 
have caused us to rebalance our programming on a very regular 
basis throughout the year so far. We're very pleased and 
grateful that we're now on solid footing for the remainder of 
the year.
    Through good management and creative distribution of 
available funds, we have preserved all of the critical 
activities that are scheduled under the 4-year lockdown effort. 
We feel confident right now that we will be able to meet all of 
the high-level presidential commitments that were made. So in 
that regard, we have been able to successfully preserve that 
piece of our programming.
    That is not to say that none of our programming was 
affected. Certainly when you simply don't have the money 
certain things will suffer. So the radiological source recovery 
and security activities that we typically undertake in the 
United States have been cut back, and we have also eliminated 
some of the funding for the Russia piece of the fissile 
material disposition program. But we have done that without 
sacrifice to those programs. We will see some of those funds 
come back in future years, so it's not that those weren't 
important items to fund. It's just that we had to postpone 
certain things because of budget realities this year.
    Senator Hagan. Mr. Myers, I understand the DTRA is in a 
similar position. What impact will the reductions in fiscal 
year 2011 have on DTRA's mission and what won't get done?
    Mr. Myers. Thank you. Let me take one step back before I 
discuss 2011 and 2012. I think it's important to put this in 
the proper context. DTRA was flat-lined for approximately a 
decade. So the 2011 budget that was submitted by the President 
for DTRA represented a significant increase, approximately 17.5 
percent, and we are very appreciative of the fact that the vast 
majority of those resources were provided. A small cut was 
made, but the vast majority of those were provided.
    So when you compare the 2010 to the 2011 to the 2012 budget 
request that Senator Portman suggested, you will see a spike. 
So the 2012 request is not necessarily a cut. It is not as high 
as the correction, if you will, of the 2011 budget.
    Now, I will tell you we have taken the Secretary of 
Defense's challenge very, very seriously. We are working very 
hard to become more effective, more efficient, with the 
resources that we have. We are prioritizing. We have taken a 
very long, hard look at what we're doing and how we're doing 
it, to ensure that we're getting maximum efficiency out of 
every effort currently underway.
    We have shut down a number of offices because we believe we 
can support them equally well from our headquarters with 
foreign trips or TDY efforts or the like. We've also looked at 
a number of our efforts and narrowed the technological paths 
that we're following in those areas. We've also done a complete 
rack-and-stack prioritization of all the things that we do at 
DTRA.
    The item that came out at the bottom was the Advanced 
Systems and Concepts Office. This is an organization that has 
sponsored dialogues and conferences and studies in the past, 
and we identified that as our lowest priority. That is going to 
be significantly cut back in the future. We will continue some 
support for those efforts in coordination with Policy and our 
friends at the NNSA. But those are the ways that we have 
identified savings, so we can continue to place the highest 
priorities in our role as a combat support agency directly to 
the warfighter and continue our threat reduction activities and 
our research and development activities as well.
    Senator Hagan. I appreciate your comments on having to be 
more efficient and more effective, and I think every agency and 
every entity has to be doing that. So thank you.
    Ms. Harrington, every year the subcommittee hears that 
there are countries that want to participate in the Megaports 
program, but there is not enough money to fund all of these 
agreements. Is that true this year, and why is the Megaports 
program important? Are there other countries helping in the 
cost of Megaports oversight or the program? Does NNSA know if 
there has been any detection of nuclear materials that could be 
used in a dirty bomb or an improvised nuclear device?
    Ms. Harrington. Thank you very much for your question. I'd 
like to ask John Gerrard, if I could, to answer your specific 
question about the Megaports program and countries that would 
like to participate or not.
    Also, on the detection piece of it, yes, our equipment has 
in fact detected various shipments, sometimes false alarms, 
sometimes not. But these are tracked, working in coordination 
with our Office of Emergency Response, and the recipient 
countries are alerted. The system actually works quite well. In 
fact, in a closed session we could describe perhaps more in 
detail, but there was a recent detection in fact with the 
contents being identified as to what the problem was.
    So this is an ongoing but effective program that I believe 
does deserve support, including, for example, in countries like 
Pakistan, where this is one of our active programs with them. 
Certainly we don't want anything exported to us from Pakistan 
that has a surprise in it. So we are very serious about that 
program there.
    John.
    Mr. Gerrard. We have 100 Megaports in our baseline program 
right now to be completed by 2018. I can't say that we have 
countries that are requesting assistance at the moment that we 
are not currently engaging, but if we did outreach to 
additional countries it would probably generate interest.
    Senator Hagan. Thank you.
    Senator Portman.
    Senator Portman. Thank you, Madam Chairman.
    I thank the witnesses today for giving us some great 
information about their work and their budgets. As I said in my 
opening, I'd like to talk a little about this GAO report and 
some of the concerns that were raised.
    But let me start, if I could by talking about again the 
fiscal situation. By the way, I have to commend you, Mr. Myers. 
I don't think I've ever heard an agency head say, including in 
my time at the Office of Management and Budget (OMB), that a 5 
percent reduction in spending was not a cut. I understand what 
you're saying about last year's budget, but you're a good 
soldier. I wish you'd been working there when I was at OMB, so 
your agency would have been more understanding.
    The concern about cost-sharing and particularly sharing the 
overall cost burden associated with monitoring and securing 
material is a challenge. There was a summit in 2010 when there 
seemed to be a lot of global support for nonproliferation 
efforts. But my understanding is that very few nations have 
stepped up.
    Ms. Harrington, maybe you're the best one to answer this 
one about cost-sharing. What countries do we currently have 
cost-sharing arrangements with and how much are they doing?
    Ms. Harrington. Thank you very much. I'd like to start 
that, that cost-sharing and coordination, by pointing out to 
you that I think we have the best example of that sitting here 
at the table. Between our organization, DOD Policy, and DTRA, 
we have quarterly what we call bridge meetings. We have five 
standing working groups that are addressing various elements 
that are in common among our organizations. We look at 
everything from the strategic planning level to what can we be 
doing in specific countries together. So we really are trying 
to work very hard as U.S. Government agencies across the 
government to make our nuclear security work more effective.
    On your specific question about what impact has the nuclear 
security summit had and what assistance are other countries 
providing, there is a fairly detailed accounting of what 
different countries are putting into their commitments for the 
nuclear security summit. It's one of those circumstances, which 
I'm sure you understand well, that when you get heads of state 
or heads of government together and they make commitments, they 
don't like to look foolish 2 years later when they show up at 
the follow-up summit with nothing in hand.
    So we actually have seen some real movement. For example, 
the Chinese, who are working with us on a center of excellence, 
are putting many tens of millions of dollars into both the land 
and construction of that facility. Other nations, including The 
Netherlands, the U.K., Denmark, Norway, have over time provided 
I believe it's either $61 or $71 million. It's a little bit 
over $61 million to our programs.
    So that often comes in half a million or million dollar 
pieces, but it has been a very steady trend over the past years 
that these countries are providing additional funding directly 
to us. That is allowable because you gave us the authority to 
accept the foreign funds and that has in fact opened the gate 
to providing those additional funds to us.
    But we can provide you with a detailed breakout of the 
countries, the amounts, and the programs to which the funds 
came.
    [The information on commitments was not available. The 
information on foreign contributions follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Portman. I'd appreciate that, if you could give us 
what the commitments were and then where they are in terms of 
their cost-sharing obligations.
    Ms. Harrington. Yes.
    Senator Portman. Any information you have as to the future. 
As you say, maybe some of these countries are going to come 
through before the next meeting. I assume that's in 2012. I'd 
like to see what they're actually doing.
    Since you mentioned China, let's go to China. The GAO 
report said that political sensitivities in China and in India 
have limited your efforts in both countries to the relatively 
noncontroversial exchange of nuclear security best practices, 
training, demonstration projects, instead of implementing these 
activities directly at nuclear sites. So my question would be, 
to the extent the American taxpayer is paying for the nuclear 
center of excellence in China, and my understanding is we are 
paying the bulk of that, and to the extent that China is not 
cooperating per the GAO report, what confidence do you have 
that there is going to be cooperation going forward that 
justifies this expense?
    Ms. Harrington. I'll be happy to share this, to share the 
answer, with my DOD colleagues. First, I think we need to be 
aware that cooperation with China is extensive in the nuclear 
security, nuclear energy, and nuclear safety areas. I was 
recently in China for a meeting of our peaceful uses of nuclear 
technology joint coordinating committee, and also spent time 
during that visit with China Customs going over plans for a new 
radiation detection training center that we're developing with 
them.
    But we have a very deep and professional relationship with 
the Chinese in a number of nonproliferation areas. The center 
of excellence is simply another layer on top of that. So I 
would say that we are already working on collaboration at many 
levels.
    Senator Portman. You disagree with the GAO analysis saying 
that this relatively noncontroversial exchange of nuclear 
practices and so on and training and so on is problematic, that 
they're not moving ahead because of political sensitivities?
    Ms. Harrington. That does not at all track with my 
discussions a month ago, when there was uniform enthusiasm for 
proceeding with the center of excellence and for exploring how 
broadly we can use that as a new mechanism, not just for 
bilateral, but also for regional and international activities 
in the nonproliferation area.
    Senator Portman. Back to the first question I raised in my 
opening statement, when the GAO looked at two of your three 
programs and said they had only limited success in achieving 
their objectives in Russia, how do you respond to that? Do you 
disagree with that as well?
    Ms. Harrington. The GAO report came out at a time when 
there was a lot of work that was midstream, and since that 
report was published a great deal has happened. For example, 
since the April 2009 Prague speech we've removed 963 kilograms 
of nuclear weapons-useable material from a variety of 
countries, 21 countries. We've eliminated all material from six 
countries: Romania, Libya, Turkey, Taiwan, Chile, and Serbia. 
We also were able to secure a number of shipments, again after 
the GAO report came out. There were multiple shipments out of 
Ukraine to Russia in December of 2010 and again from Belarus. 
That material, with our cooperation with the Russians, was 
removed in November and December of 2010.
    So at the point when the GAO data collection was complete 
for their report, that was one point in time. We're in a very 
different point in time now.
    Senator Portman. It might be helpful if you could give the 
committee that in writing, relative to the GAO analysis.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Portman. One final question. Last year you 
testified that the Russians have resisted granting us access to 
their serial production plants, the plants where weapons are 
actually built. My question is, do you think these facilities 
are adequately secured? This time last year, the list you had 
for securing facilities in Russia was down to 19. What's your 
number now? How much progress has been made, and what's the 
time frame for securing the remaining facilities?
    Ms. Harrington. I'll turn to John Gerrard for that one.
    Mr. Gerrard. With regard to the serial production 
enterprises, we are not working with those facilities, so that 
situation continues.
    Senator Portman. You're not working with those facilities?
    Mr. Gerrard. We are not. We haven't been granted access to 
those facilities, so we've not visited them and we have very 
little information about the conduct of security operations at 
them.
    Senator Portman. So you can't tell us whether they're 
adequately secured?
    Mr. Gerrard. No.
    Senator Portman. Is Russia covering the cost of sustaining 
a security infrastructure at those facilities and others?
    Mr. Gerrard. Yes, yes. We believe a lot of our nationally-
oriented programs, like our training programs and our 
regulatory programs with the Russian Rosatom complex, affect 
the serial production enterprises. So we think we are touching 
them indirectly, but we are not on the ground at them.
    Senator Portman. What are your plans for being able to 
access the serial production plants to know whether they're 
being adequately secured?
    Mr. Gerrard. We have a continuing desire to dialogue with 
Russian officials on that subject. But there is no particular 
path forward right now with regard to gaining access to those 
facilities. They have assured us several times, including in 
writing, that they are doing that on their own.
    Senator Portman. My time has expired. I have some questions 
about START that I hope maybe, Mr. Myers, you can get back to 
us in writing on. Again, I thank you for your hard work and 
your testimony today.
    Senator Hagan. I think we'll take two more quick rounds of 
4 or 5 minutes.
    Biological surveillance. Mr. Handelman and Mr. Myers, DOD 
is expanding its biological surveillance and early warning 
efforts. How are these activities coordinated with other health 
care-focused activities to ensure that there is no overlap, and 
why has DOD decided to do work in Africa, if you can comment on 
that? Are other countries providing funds to help with the 
biological surveillance work?
    Mr. Handelman. Senator, let me take those in reverse order. 
I think there were three questions. Your last point touched on 
this issue of cost-sharing.
    Senator Hagan. Right.
    Mr. Handelman. As I was listening to Secretary Harrington 
discuss it with Senator Portman, I wanted to chime in and make 
what I think is a really important point about these programs. 
These programs are not foreign assistance. Now, I'm not trying 
to be pejorative about foreign assistance. We engage in these 
activities because they benefit the United States interest and 
they're supposed to be in pursuit of U.S. interests.
    Now, in a time of fiscal austerity, and certainly if you're 
trying to build a mutual relationship that's built on 
commitments and trust, cost-sharing is a good thing. However, I 
can tell you from my perspective, my experience with the Nunn-
Lugar program, you get what you pay for, and when you want to 
meet certain milestones on a certain time line, sometimes you 
have to just go and do it.
    Now, when we were working in Russia and the other former 
Soviet states, that had sometimes colossal cost implications 
because we were dealing with a very heavy infrastructure and 
complex projects. As we move into Africa or other areas outside 
the former Soviet states, particularly with respect to 
biodefense, it's our expectation that those cost implications 
are going to be less.
    Let me hesitate to say, you gave us authority for cost-
sharing. We're not ignoring that. I'm not trying to say that 
we're just not going to pursue that.
    Why did we look at Africa? Well, first of all, why did we 
look so much at biodefense? You have a large part of the U.S. 
Government in the nonproliferation business that's worrying 
about nuclear and radiological issues. The vast expertise in 
the entire DOE, for example. As I said in my opening comments, 
though, there really are not very many U.S. agencies with 
authority to deal with biodefense issues overseas. Department 
of Homeland Security does a fine job domestically. So this 
really, as we looked at it, was an underaddressed area and it 
was something we wanted to pursue, and there was a huge base of 
experience dealing with what was known as Biopreparat. This is 
the old Soviet bioweapons complex in the former Soviet states. 
Africa is not the first time that the U.S. is addressing 
biosecurity.
    But when we looked outside the former Soviet states, 
African countries first were a place where the United States 
already has a significant perch or presence. Public health 
agencies have been working there for many years. Second, 
needless to say, highly dangerous pathogens are endemic. Africa 
is also a continent where borders are less secure.
    So from our perspective, if we wanted to dip a toe in the 
water, so to speak, outside the former Soviet states, this was 
a continent where we could leverage preexisting U.S. presence 
and also one where a mosaic of factors contributed to a 
potential threat profile. We are not aware of any particular 
terrorist organization raiding labs in a particular African 
country right now, but all the pieces and parts are there for 
that kind of threat to emerge.
    Senator Hagan. Mr. Myers, did you have any comments on 
that?
    Mr. Myers. Just two quick ones. Mr. Handelman and I had the 
opportunity to join Senator Lugar on a trip to Kenya and Uganda 
last fall, and I think the thing that became very clear to me 
was that that region of the world, that's the birthplace for a 
lot of these pandemics and deadly diseases. I mean, they occur 
naturally in that region.
    Many of the weapons programs around the world have gone to 
East Africa to collect samples, take them back home, and begin 
to develop weapons programs. So that our goal is to keep the 
terrorists as far away from the weapons or the pathogens or the 
diseases as possible. In a lot of cases when you're talking 
about East Africa, that really is one of the places that an 
organization could find those kind of diseases occurring 
naturally.
    Mr. Myers. Thank you.
    Mr. Portman, Senator Portman.
    Senator Portman. Just briefly on the biological side. On 
your trip, my understanding is that you found certain 
facilities, particularly laboratories, which were not 
laboratories focused on weaponization, but rather just focused 
on research facilities, much as we have here in this country; 
and that some of them were not as well secured as you would 
have hoped. What, if anything, has the United States done with 
regard to those labs and others in Kenya, Uganda, and other 
countries?
    Mr. Handelman. Well, I introduced Mr. Jed Royal in my 
opening remarks. He's made a number of trips out to those 
countries.
    Senator Portman. Would Jed please raise his hand? Is it J-
e-d?
    Mr. Royal. Yes, sir, J-e-d.
    Senator Portman. I have a son Jed who's in town right now. 
It's a very prestigious name, and unusual.
    Mr. Handelman. I hope you claim credit for your son's good 
works, as I do for this Jed.
    Senator Portman. Yes, you're talking him up.
    Mr. Handelman. So we are in the phase where we're building 
the relationship. We have yet to formally exchange diplomatic 
notes. One thing we're trying to get away from is the 
cumbersome overarching sort of legal frameworks that were 
necessary in some of the former Soviet projects. We just want 
to get on with the work.
    The first step will be physical security. That's easy. The 
harder parts and the longer term part of it are cooperative 
research programs, giving these laboratories the capability, 
for example, to do surveillance. As I alluded to in my opening 
statement, the hard part about this is we can give them a PCR 
machine, which is the thing that figures out some genetic 
aspects of a sample. They could use that for measles. I'm not 
going to tell you otherwise. But they could also use it for 
ebola, depending on what's happened out in the countryside, 
assuming a sample can be brought into the laboratory.
    I will say, in some of those countries they actually have 
quite an advanced science capability already, particularly in 
Kenya. Our goal is to be able to work with them so they know to 
communicate this stuff--well, first of all do the science 
correctly, and then communicate it through the World Health 
Organization, through the relationships with us, in order that 
we have a bit of a heads up on whether an outbreak is naturally 
occurring or manmade.
    Senator Hagan. Ms. Harrington, Mr. Myers?
    Mr. Myers. I would just follow up with one quick point, and 
that is when we're talking about the cooperation that we are 
seeking to engage with African partners on, we're really 
talking about a different scale and scope of the cooperation 
that we had with states of the former Soviet Union. In the 
states of the former Soviet Union (FSU), we were talking about 
a massive infrastructure, the Biopreparat system that Mr. 
Handelman referred to earlier. It was a very large undertaking, 
a very complex undertaking.
    When we're talking about providing the equipment that Mr. 
Handelman referred to and security and safety upgrades, we're 
talking about a much more straightforward, much simpler, much 
less expensive process. So I really want to point out the 
difference in the scale and scope of the efforts that we have 
underway or had underway in the FSU as compared to those that 
we are engaging Kenya, Uganda, and other countries in today.
    Senator Hagan. Ms. Harrington, Mr. Myers, and Mr. 
Handelman, thank you very much for your testimony today. The 
hearing is adjourned.
    [Whereupon, at 4:52 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
